No.

In the Supreme Court of the United States
ALIXPARTNERS, LLP ET AL.,
Petitioners,
v.
THE FUND FOR PROTECTION OF INVESTOR RIGHTS IN
FOREIGN STATES,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
PETITION FOR A WRIT OF CERTIORARI
JOSEPH T. BAIO
STUART R. LOMBARDI
WILLKIE FARR &
GALLAGHER LLP
787 Seventh Avenue
New York, NY 10019
(212) 728-8000

MARK T. STANCIL
Counsel of Record
WILLKIE FARR &
GALLAGHER LLP
1875 K Street, NW
Washington, DC 20006
(202) 303-1000
mstancil@willkie.com

QUESTION PRESENTED
Under 28 U.S.C. § 1782(a), district courts may
authorize third-party discovery against U.S. persons
where the evidence sought is for use in “a foreign or
international tribunal.” The lower courts are in
acknowledged conflict regarding the meaning of the
phrase “foreign or international tribunal” and,
accordingly, whether Section 1782 reaches nongovernmental arbitration proceedings occurring in a
foreign country. This Court was set to resolve that
conflict in Servotronics, Inc. v. Rolls-Royce PLC, No.
20-794, but that case was dismissed upon the parties’
Rule 46 motion shortly before oral argument had been
scheduled to occur. This petition likewise presents the
Section 1782 dispute, and in an even more critical
context. Whereas the arbitration in Servotronics was
between two private parties, the arbitration here is
between a private party and a foreign state—an
application of Section 1782 upon which the United
States has expressed “particular concern.” The
question presented is:
Whether an ad hoc arbitration to resolve a
commercial dispute between two parties is a “foreign
or international tribunal” under 28 U.S.C. § 1782(a)
where the arbitral panel does not exercise any governmental or quasi-governmental authority.

(I)

II
PARTIES TO THE PROCEEDING
Petitioners (third-party defendants-appellants
below) are AlixPartners LLP and Mr. Simon Freakley.
Respondent (plaintiff-appellee below) is The Fund
for Protection of Investor Rights in Foreign States.
CORPORATE DISCLOSURE STATEMENT
Petitioner AlixPartners LLP states that it is a
privately held limited liability partnership with a
principal place of business in New York. AlixPartners
LLP further states that its corporate parent is
AlixPartners Holdings LLP and that no publicly-held
corporation owns a 10% or greater interest in
AlixPartners LLP.
RELATED PROCEEDINGS
United States District Court (S.D.N.Y.):
In re the Application of the Fund for Protection of
Investor Rights in Foreign States Pursuant to 28
U.S.C. § 1782 for an Order Granting Leave to Obtain
Discovery for use in a Foreign Proceeding, No. 19-mc00401-AT (July 8, 2020) (authorizing issuance of
subpoenas), recons. denied August 25, 2020.
United States Court of Appeals (2d Cir.):
The Application of the Fund for Protection of
Investor Rights in Foreign States Pursuant to 28
U.S.C. § 1782 for an Order Granting Leave to Obtain
Discovery for use in a Foreign Proceeding v.
AlixPartners, LLP, No. 20-2653-cv (July 15, 2021)
(affirming district court), rehearing denied September
10, 2021.

III

TABLE OF CONTENTS
Page(s)
OPINIONS BELOW ....................................................1
JURISDICTION ..........................................................1
STATUTORY PROVISION INVOLVED....................1
STATEMENT ..............................................................2
A.
Factual Background ....................................3
B.
Procedural Background ..............................6
REASONS FOR GRANTING THE PETITION .......11
A.
The Decision Below Exacerbates A
Recognized Conflict Regarding What
Constitutes A “Foreign Or International
Tribunal” Under Section 1782 ..................11
B.
The Question Presented Is Important,
And This Case Presents An Ideal
Vehicle To Address It In The Context Of
Investor-State Arbitration ........................18
C.
The Decision Below Is Wrong ...................23
CONCLUSION ..........................................................28

IV
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT, DATED JULY 15, 2021............ 1a
APPENDIX B — OPINION OF THE UNITED
STATES
DISTRICT
COURT
FOR
THE
SOUTHERN DISTRICT OF NEW YORK, FILED
AUGUST 25, 2020 .................................................... 34a
APPENDIX C — OPINION OF THE UNITED
STATES
DISTRICT
COURT
FOR
THE
SOUTHERN DISTRICT OF NEW YORK, FILED
JULY 8, 2020 ............................................................ 41a
APPENDIX D — DENIAL OF REHEARING OF THE
UNITED STATES COURT OF APPEALS FOR
THE SECOND CIRCUIT, DATED SEPTEMBER
10, 2021 .................................................................... 52a

APPENDIX

E — RELEVANT STATUTORY
PROVISIONS ........................................................... 54a
APPENDIX F — AGREEMENT BETWEEN THE
GOVERNMENT
OF
THE
RUSSIAN
FEDERATION AND THE GOVERNMENT OF
THE REPUBLIC OF LITHUANIA ON THE
PROMOTION AND RECIPROCAL PROTECTION
OF THE INVESTMENTS, FILED AUGUST 29,
2019 .......................................................................... 56a

V
TABLE OF AUTHORITIES
Page(s)
Cases
Abdul Latif Jameel Transp. Co. v.
FedEx Corp,
939 F.3d 710 (6th Cir. 2019) .......................... 12, 14
In re Dubey,
949 F. Supp. 2d 990 (C.D. Cal. 2013) .................. 16
In re Grupo Unidos por el Canal, S.A.,
2014 WL 5456520 (N.D. Cal. Oct. 27,
2014) ..................................................................... 16
In re Guo for an Order to take Discovery
for Use in a Foreign Proceeding
Pursuant to 28 U.S.C. 1782,
965 F.3d 96 (2d Cir. 2020), as
amended (July 9, 2020) ...................................... 7, 9
Intel Corp. v. Advanced Micro Devices,
Inc.,
542 U.S. 241 (2004) .............................................. 14
Islamic Republic of Pakistan v. Arnold
& Porter Kaye Scholer LLP,
2019 WL 1559433 (D.D.C. Apr. 10,
2019) ..................................................................... 16
In re Mongolia v. Itera International
Energy, L.L.C.,
2009 WL 10712603 (M.D. Fla. Nov.
10, 2009) ............................................................... 16

VI
National Broadcasting Co. v. Bear
Stearns & Co.,
165 F.3d 184 (2d Cir. 1999) ........................... 10, 15
In re Rendon,
519 F. Supp. 3d 1151 (S.D. Fla.
2021) .................................................................... 16
Republic of Kazakhstan v. Biedermann
Int’l,
168 F.3d 880 (5th Cir. 1999) .................... 12, 13, 14
In re Roz Trading Ltd.,
469 F. Supp. 2d 1221 (N.D. Ga.
2006) .................................................................... 16
Servotronics, Inc. v. Boeing Co.,
954 F.3d 209 (4th Cir. 2020) .................... 12, 13, 14
Servotronics, Inc. v. Rolls-Royce PLC,
975 F.3d 689 (7th Cir. 2020) .......................... 12, 13
In re Storag Etzel GmbH,
2020 WL 1849714 (D. Del. Apr. 13,
2020) .................................................................... 16
Statutes
28 U.S.C. § 1254(1) ...................................................... 1
28 U.S.C § 1782 ................................................. passim

VII
Other Authorities
The United Nations Commission On
International Trade Law, Frequently
Asked Questions,
https://uncitral.un.org/en/texts/arbitration/faq............................................................... 5

Petitioners AlixPartners LLP and Simon Freakley
respectfully petition for a writ of certiorari to review
the judgment of the United States Court of Appeals
for the Second Circuit in this case.
OPINIONS BELOW
The opinion of the court of appeals (App. 1a-33a) is
reported at 5 F.4th 216. The opinion of the district
court (App. 41a-51a) is not published in the Federal
Supplement but is available at 2020 WL 3833457. The
opinion of the district court denying reconsideration
(App. 34a-40a) is not published in the Federal
Supplement but is available at 2020 WL 5026586.
JURISDICTION
The opinion of the court of appeals was issued on
July 15, 2021. The court of appeals denied Petitioners’
timely petition for panel rehearing or rehearing en
banc on September 10, 2021. The jurisdiction of this
Court is invoked under 28 U.S.C. § 1254(1).
STATUTORY PROVISION INVOLVED
Section 1782(a) of Title 28 of the United States
Code provides, in pertinent part:
The district court of the district in which a
person resides or is found may order him to give
his testimony or statement or to produce a
document or other thing for use in a proceeding
in a foreign or international tribunal, including
criminal investigations conducted before
formal accusation.

2
STATEMENT
Section 1782 allows district courts to authorize
third-party discovery against U.S. persons “for use in
a proceeding in a foreign or international tribunal.”
The lower courts are in widespread and acknowledged
disagreement over what qualifies as a “foreign or
international tribunal,” leading those courts to reach
conflicting results when applying Section 1782 to
foreign, non-governmental arbitration proceedings.
This Court was poised to resolve that confusion in
Servotronics, Inc. v. Rolls-Royce PLC, No. 20-794,
before that case was voluntarily dismissed at the
eleventh hour. Servotronics arose from an arbitration
between two private parties. This case presents the
same question of statutory interpretation—whether
an arbitral panel is a “foreign or international
tribunal” under Section 1782—but arises from an
arbitration between a private party and a foreign
state
(commonly
known
as
“investor-state
arbitration”).
The decision below exacerbated the disarray
among the lower courts. The court of appeals
concluded that, although Second Circuit precedent
held that arbitration between two private parties does
not fall within Section 1782, investor-state arbitration
does. That conclusion was not based on any feature of
the panel’s composition, procedures, or independence—all of which the court of appeals acknowledged
were no different from other ad hoc arbitrations.
Rather, the court of appeals reasoned that this
arbitral panel qualified as a “foreign or international
tribunal” under Section 1782 because the state party
had previously agreed in a treaty with another state

3
that certain disputes could be pursued via ad hoc
arbitration.
This case presents an ideal opportunity to provide
the lower courts with much-needed guidance. This
case will necessarily answer the fundamental question of what qualifies as a “foreign or international
tribunal” under Section 1782, which Servotronics
would have addressed in the context of arbitration
between two private parties. Significantly, however,
this case will also clarify Section 1782’s application to
investor-state arbitration. The United States has
expressed “particular concern” regarding any reading
of Section 1782 that would bring investor-state
arbitration within the statute’s reach. Servotronics,
Brief for the United States as Amicus Curiae
Supporting Respondents at 15 (June 28, 2021) (“U.S.
Br.”). Indeed, there is no better vehicle to clarify this
jumbled landscape than a decision arising from the
Second Circuit, which exempts arbitration between
two private parties from Section 1782 but reaches the
opposite result when an otherwise indistinguishable
arbitration is between a private party and a foreign
state.
A. Factual Background
Petitioners are AlixPartners LLP, a consulting
firm headquartered in New York, and its current
CEO, Mr. Simon Freakley. App. 7a, n.11. Respondent
is The Fund for Protection of Investors’ Rights in
Foreign States (the “Fund”), a Russian investment
entity. The Fund is an alleged assignee of a former
shareholder’s claim against Lithuania regarding AB
Bankas Snoras (“Snoras”), a failed Lithuanian bank.
App. 4a. In late 2011, the Bank of Lithuania
appointed Mr. Freakley as the Temporary

4
Administrator of Snoras. App. 4a, 42a. Lithuania
tasked Mr. Freakley with investigating the bank and
its solvency. Mr. Freakley was assisted in this work
by Zolfo Cooper, a financial advisory firm of which he
was then CEO. App. 7a, n.11. Following submission of
Mr. Freakley’s report, Snoras’s activities remained
under restriction until January 16, 2012, when it was
placed into Lithuanian bankruptcy proceedings and
declared insolvent.
Nearly eight years later, in April 2019, respondent
initiated an arbitration proceeding against Lithuania,
asserting claims arising from Lithuania’s actions
regarding Snoras. Respondent brought the arbitration
pursuant to Article 10(2)(d) of the Agreement
Between The Government Of The Russian Federation
And The Government Of The Republic Of Lithuania
On The Promotion And Reciprocal Protection Of the
Investments (the “Treaty”). App. 4a, 42a. The Treaty
provides investors the option to raise disputes in one
of four ways: (a) any “competent court or court of
arbitration” of Lithuania or Russia; (b) “the
Arbitration Institute of the Stockholm Chamber of
Commerce;” (c) “the Court of Arbitration of the
International Chamber of Commerce;” or (d) “an ad
hoc arbitration in accordance with [the] Arbitration
Rules of the United Nationals Commission on
International Trade Law (UNCITRAL).” App. 64a65a. Respondent elected the fourth option (App. 6a),
and delivered a notice of arbitration to Lithuania.1

A Protocol annexed to the treaty also allowed respondent to
the “right to prompt review of [its] case by the appropriate
judicial or administrative authorities” of Lithuania, which
respondent did not pursue. App. 69a.
1

5
The UNCITRAL Arbitration Rules2 provide that,
“[w]here the parties to a contract have agreed in
writing that disputes in relation to that contract shall
be referred to arbitration under the UNCITRAL
Arbitration Rules, then such disputes shall be settled
in accordance with these Rules subject to such
modification as the parties may agree in writing.”
UNCITRAL Arbitration Rules, Art. 1. The
UNCITRAL Arbitration Rules do not purport to carry
the force of law; to the contrary, “where any of [the]
Rules is in conflict with a provision of the law
applicable to the arbitration from which the parties
cannot derogate, that provision shall prevail.” Id.
UNCITRAL does not “become involved in individual
cases.” The United Nations Commission On International Trade Law, Frequently Asked Questions,
https://uncitral.un.org/en/texts/arbitration/faq. Nor
does UNCITRAL “nominate arbitrators,” “certify
arbitral authorities,” or “act as an arbitral tribunal,
administer arbitration proceedings, or otherwise
perform any function related to individual arbitration
proceedings.”3
Respondent pursued the arbitration in accordance with the
UNCITRAL Arbitration Rules of 1976 (the “UNCITRAL
Arbitration Rules”). Notice of Arbitration ¶ 1 (Dkt. No. 3-1).
2

By way of comparison, the International Chamber of
Commerce (“ICC”) Arbitration Rules, the International Centre
for Dispute Resolution (“ICDR”) of the American Arbitration
Association (“AAA”), and the London Court of International
Arbitration (“LCIA”) Rules provide administrative services for
arbitrations conducted pursuant to their respective rules. Such
services may range from docketing pleadings, facilitating
appointments (including, if necessary, the selection of
arbitrators), determination of challenges to or replacements of
arbitrators, joinder of parties and consolidation of proceedings,
transmission of awards, and management of arbitrator fees and
3

6
The arbitral panel here comprises three private
individuals—a Swiss practitioner, a Canadian practitioner, and an American law professor—chosen by the
parties. App. 20a. The parties, with consultation and
approval from the arbitral panel, have agreed upon
detailed procedures by which the arbitration will be
conducted. Respondent seeks the Section 1782
discovery for the merits phase of the case, which has
not yet commenced. App. 24a, n.52.
B. Procedural Background
Shortly after commencing the arbitration,
respondent filed an application in the Southern
District of New York under Section 1782 seeking leave
to serve third-party discovery requests on petitioners.
Respondent sought extensive documentary materials
and testimony from petitioners relating to
Mr. Freakley’s work on the Snoras engagement. For
example, the subpoenas requested “any and all documents or communications concerning Mr. Freakley’s
appointment and work as Temporary Administrator”
and “any and all reports (including drafts) prepared
by Mr. Freakley or individuals acting under” his
“direction or supervision.” (Dkt. No. 3-11).4 Respondent also sought the depositions of Mr. Freakley and
expenses, as well as party deposits. ICC Rules of Arbitration,
Arts. 1(2), 3-10, 13-15, 35, 37 (detailing functions of “ICC Court
of Arbitration” and “Secretariat”); LCIA Rules, Arts. 1-3, 5, 7-8,
10-11, 22A, 24, 26, 28-29 (detailing functions of “LCIA Court” and
“Registrar”); ICDR International Arbitration Rules, Arts. 1(3), 25, 8-9, 13, 15-16, 33, 38, 39 (detailing functions of
“Administrator”).
Citations to “Dkt. No. [#]” refer to documents filed below in In
re the Application of the Fund for Protection of Investor Rights in
Foreign States, No. 1:19-mc-00401-AT (S.D.N.Y). Citations to
“CA2 ECF No. [#]” refer to documents filed in The Application of
4

7
a corporate representative of AlixPartners. App. 7a
(see Dkt. Nos. 3-13, 3-14). At least some of the
information sought by respondent is “not publicly
available” and, according to respondent, has “been
classified as a State secret by the Lithuanian special
services.” Notice of Arbitration ¶ 38 (Dkt. No. 3-1).
Petitioners opposed the application, arguing
(among other things) that the arbitration is not a
“foreign or international tribunal” within the meaning
of Section 1782. See App. 12a, 35a (Dkt. No. 18). The
district court authorized the subpoenas. It reasoned
that the arbitration “was convened under the
authority of the Treaty”; that the Fund “seeks to
enforce rights established by that treaty against
Lithuania as a state”; and that the arbitration “will be
conducted pursuant to UNCITRAL rules.” App. 46a.
The same day the district court issued its decision,
the Second Circuit issued In re Guo for an Order to
take Discovery for Use in a Foreign Proceeding
Pursuant to 28 U.S.C. 1782, 965 F.3d 96 (2d Cir.
2020), as amended (July 9, 2020) (“Guo”). Guo applied
a multi-factor test to hold that commercial arbitration
between private parties did not fall within
Section 1782’s ambit. Petitioners moved for reconsideration in light of Guo. See App. 37a (Dkt. No. 28).
The district court denied the motion, holding that
petitioners had “presented arguments based on those
same factors” as the Second Circuit considered in Guo.
App. 39a.
The court of appeals affirmed. App 1a-33a. The
court stated that its analysis was governed by the four
the Fund for Protection of Investor Rights in Foreign States v.
AlixPartners, LLP, No. 20-2653-cv (2d Cir.).

8
factors identified in Guo: (1) the “degree of state
affiliation and functional independence possessed by
the entity”; (2) “the degree to which a state possesses
the authority to intervene to alter the outcome of an
arbitration after the panel has rendered a decision”;
(3) the “nature of the jurisdiction possessed by the
panel”; and (4) the “ability of the parties to select their
own arbitrators.” App. 15a-16a.
With regard to the first factor, the court of appeals
acknowledged that “the arbitral panel . . . functions
independently from the governments of Lithuania and
Russia”; that “[t]he members of the arbitral panel (two
arbitration lawyers and a law professor) have no
official affiliation with Lithuania, Russia, or any other
governmental or intergovernmental entity and the
panel receives zero government funding”; and that the
panel’s “award may be made public only with the
consent of both parties.” App. 17a. “Nevertheless,” the
court of appeals held, “this functional independence of
the arbitral panel must be viewed within the context
of the Treaty.” Id. That “context,” the court explained,
was that the arbitration was “expressly contemplated
by the Treaty” and was conducted by rules “developed
by UNCITRAL, an international body.” Id. The court
concluded that the arbitral panel “thus retains
affiliation with the foreign States, despite its
functional independence in other ways,” and
“[a]ccordingly, this factor weighs in favor” of bringing
this arbitration within Section 1782. App. 18a.
Turning to the second factor, the court of appeals
acknowledged that a state’s authority “to influence or
control” the arbitration “is limited, if not nonexistent.” Id. But the panel concluded that this lack of
influence was negated by the fact “that an arbitration

9
against a foreign State, whether conducted pursuant
to a bilateral investment treaty like this Treaty or
otherwise, necessarily requires that the foreign State
consent to subject itself to binding dispute resolution.”
Id. The court deemed this factor “neutral as to
whether this arbitral panel qualifies” under Section
1782. App. 19a.
The court of appeals afforded the third Guo factor
virtually dispositive significance. “Critically,” the
court concluded, “the arbitral panel in this case
derives its adjudicatory authority from the Treaty . . .
rather than an agreement between purely private
parties or any other species of private contract.” App.
19a. The court relied on dicta in Guo suggesting that
an “‘arbitral body under a bilateral investment treaty
may be a “foreign or international tribunal” when it
derives its adjudicatory authority from the ‘intervention or license of any government to adjudicate
cases arising from certain varieties of foreign
investment.’” App. 19a-20a (quoting Guo, 965 F.3d at
108 n.7). The court concluded that “this factor weighs
heavily in favor” of authorizing Section 1782
discovery. App. 20a.
As for the fourth factor, the court of appeals
acknowledged that “[t]he three arbitrators selected
are all private parties” chosen by the parties. App.
20a. The court held that “this factor weigh[ed]
against” authorizing discovery under Section 1782,
but discounted it as “not determinative.” App. 21a.5

The court of appeals briefly noted two “additional ‘functional
attributes’” of the arbitration that it held were consistent with
deeming the arbitral panel a “foreign or international tribunal.”
App. 21a. The court observed that “Lithuania, in its capacity as
5

10
Finally, the court of appeals asserted that reading
Section 1782 to reach investor-state arbitration “is
consistent with legislative intent.” App. 22a. The court
of appeals cited the Second Circuit’s prior description
of the 1964 Senate Report as indicating Congress’s
intent to “‘broaden’” the statute to reach “‘intergovernmental tribunals not involving the United States.’”
App. 23a (quoting National Broadcasting Co. v. Bear
Stearns & Co., 165 F.3d 184, 190) (2d Cir. 1999)).
Petitioners filed a timely rehearing petition
arguing, among other things, that this case was
inextricably bound up with Servotronics, in which this
Court had scheduled oral argument for October 5. On
September 8, petitioner in Servotronics filed a letter
notifying the Clerk of the parties’ intention to move to
dismiss the case pursuant to this Court’s Rule 46.
That same day, this Court removed Servotronics from
its argument calendar. Two days later, the Second
Circuit denied the rehearing petition in this case
without comment. App. 52a-53a.6 This Court
dismissed Servotronics on September 29.

a foreign State, is one of the parties,” and that “bilateral
investment treaties [are] tools of international relations.” Id.
The parties have stipulated, and the district court so-ordered
on September 22, that compliance with the discovery requests
here will not be required until after this Court disposes of this
case. Dkt. No. 39. Moreover, on September 23, the court of
appeals recalled and stayed its mandate pending the filing of this
petition and this Court’s disposition of the case. CA2 ECF No. 94.
6

11
REASONS FOR GRANTING THE PETITION
The lower courts are in acknowledged conflict as to
whether a foreign arbitration proceeding qualifies as
a “foreign or international tribunal” within the
meaning of Section 1782. As evidenced by this Court’s
grant of certiorari in Servotronics, this issue is
recurring, important, and in urgent need of review.
This case is an excellent vehicle to resolve this
question following the dismissal of Servotronics.
Indeed, the nature and scope of the disagreement
surrounding Section 1782 was on full display in the
Servotronics briefing. Parties and amici on both sides
of that case argued for competing bright-line rules
governing application of Section 1782 to arbitral
proceedings. The United States expressed “particular
concern” regarding investor-state arbitration (U.S.
Br. at 15), and argued that, “to the extent that any of
[the proposed] approaches would sweep investor-state
arbitration within Section 1782’s scope, they are
unsound and should be rejected.” U.S. Br. at 33. This
case thus presents the question of Section 1782’s
meaning in a context of paramount importance.
A.

The Decision Below Exacerbates A Recognized
Conflict Regarding What Constitutes A “Foreign
Or International Tribunal” Under Section 1782.

1. Lower courts have adopted two general
approaches to determining whether an arbitration is
a “foreign or international tribunal” within the
meaning of Section 1782, with the decision below
further muddying the waters. The Fifth and Seventh
Circuits have held that an arbitral body is not a
“foreign or international tribunal” unless it actually

12
wields governmental or quasi-governmental authority. Republic of Kazakhstan v. Biedermann Int’l, 168
F.3d 880, 882 (5th Cir. 1999); Servotronics, Inc. v.
Rolls-Royce PLC, 975 F.3d 689, 694-96 (7th Cir.
2020).7 The Fourth and Sixth Circuits, by contrast,
read Section 1782 to require, at most, that the arbitral
body have some governmental origin or endorsement.
Servotronics, Inc. v. Boeing Co., 954 F.3d 209, 213-15
(4th Cir. 2020); Abdul Latif Jameel Transp. Co. v.
FedEx Corp, 939 F.3d 710, 722-23 (6th Cir. 2019). The
decision below purported to split the difference,
applying the Second Circuit’s multi-factor Guo test,
which has been widely maligned and which treats
otherwise indistinguishable arbitral panels differently where one party is a state that gave its initial
consent to arbitration via a treaty. App. 22a.
a. The Fifth and Seventh Circuits have held that
the term “foreign or international tribunal” requires
that arbitral bodies actually wield some sort of
governmental power akin to that exercised by judicial,
quasi-judicial, or public entities. In Biedermann, the
Fifth Circuit held that Section 1782 “was not intended
to authorize resort to United States federal courts to
assist discovery in private international arbitrations.”
The court accordingly reversed an order granting
Section 1782 discovery for use in an arbitration
between the Republic of Kazakhstan and a private
litigant pending before the Arbitration Institute of the
Stockholm Chamber of Commerce. 168 F.3d at 883. As
Servotronics, Inc. was a party in both the Fourth Circuit and
Seventh Circuit cases, the latter of which this Court granted
certiorari to review. To avoid confusion, this petition refers to the
Fourth Circuit case as Boeing and the Seventh Circuit case as
Servotronics.
7

13
the Fifth Circuit explained, “not every conceivable
fact-finding or adjudicative body is covered” by
Section 1782, “even when the body operates under the
imprimatur of a foreign government.” Id. at 882
(emphasis added). The court thus rejected the
argument that governmental origin or endorsement
suffices to bring an arbitral tribunal within Section
1782.8
The Seventh Circuit reached the same conclusion
in Servotronics. The court held there that Section
1782 encompasses only “a governmental, administrative, or quasi-governmental tribunal operating
pursuant to a foreign country’s ‘practice and procedure.’” Servotronics, 975 F.3d at 695. The Seventh
Circuit acknowledged that “a split has recently
emerged” on this question. Id. at 692. It rejected as
“mistaken” the Fourth Circuit’s broad reading in
Boeing, holding that the arbitral body there did “not
exercise governmental or quasi-governmental
authority” by virtue of its existence within a statutory
arbitration regime. Id. at 693, n.2.
b. In Boeing, the Fourth Circuit held that a private
arbitration seated in England qualified as a “foreign
or international tribunal” under Section 1782,
acknowledging “a split of authority among the
circuits” on the issue. 954 F.3d at 212. The court
The Treaty here allowed respondent to submit its dispute
with Lithuania to “Arbitration Institute of the Stockholm
Chamber of Commerce”—the same arbitral body that the Fifth
Circuit concluded in Biedermann did not qualify as a “foreign or
international tribunal” under Section 1782. Moreover, the
arbitration in Biederman was authorized, in part, under a
bilateral investment treaty between Kazakhstan and the United
States. Under the reasoning adopted below, that fact would have
sufficed to bring the arbitration within Section 1782.
8

14
observed that “the UK Arbitration Act of 1996—not
unlike the Federal Arbitration Act (‘FAA’) in the
United States—. . . provides procedures for
arbitrations and allows awards to be challenged and
enforced in court.” Id. at 211. The Fourth Circuit did
not analyze the functional attributes of the arbitral
tribunal, such as whether it possessed governmental
authority akin to judicial, quasi-judicial, or other
public bodies. It was enough, in that court’s view, that
“UK arbitrations are sanctioned, regulated, and
overseen by the government and its courts.” Id. at 114.
The Sixth Circuit took an even more permissive
view in FedEx. The court held there that the “ordinary
meaning” of the term “foreign or international
tribunal” includes all arbitral panels that are
“established pursuant to contract” and have “the
authority to issue decisions that bind the parties.” 939
F.3d at 723. It explicitly rejected the argument that
Section 1782 reaches only those “arbitral authorities
permanently maintained by a national or international government to deal with certain categories of
disputes, as opposed to arbitral authorities constituted pursuant to a contract between private parties to
deal with particular commercial disputes as they
arise.” Id. at 725. That court also held that Intel Corp.
v. Advanced Micro Devices, Inc., 542 U.S. 241 (2004),
supplied “no limiting principle suggesting that the
ordinary meaning of ‘tribunal’ does not apply.” 939
F.3d at 726. The Sixth Circuit acknowledged that its
decision “is at odds with two other circuits’ decisions
on this issue.” Id. (citing Republic of Kazakhstan v.
Biedermann Int’l, 168 F.3d 880, 883 (5th Cir. 1999),

15
and National Broadcasting Co. v. Bear Stearns & Co.,
165 F.3d 184 (2d Cir. 1999) (“NBC”)9).
c. In the decision below, the Second Circuit
purported to adopt neither bright-line rule, instead
using the multi-factor approach set forth in Guo. In
application, however, that test resulted in a similarly
expansive reading of Section 1782.
The decision below afforded dispositive significance to the arbitral panel’s governmental origins but
no weight to its actual operation. The court deemed it
“critical[]” that the arbitral body “derives its adjudicatory authority from . . . a bilateral investment treaty.”
App. 19a. Similarly, the court held that because the
arbitration “was contemplated by the Treaty,” the
arbitral panel “retains affiliation with the foreign
States despite its functional independence in other
ways.” App. 17a-18a. Those “other ways” included
that the panel “functions independently from the
governments of Lithuania and Russia”; that the
arbitrators “have no official affiliation with . . . any
other governmental or intergovernmental entity”; and
that “the panel receives zero government funding.”
App. 17a. Even the admittedly “non-existent” ability
of a foreign state to “influence or control” the outcome
was given zero weight in the court’s analysis, solely
because “an arbitration against a foreign State . . .
necessarily requires that the foreign State consent to
subject itself to binding dispute resolution.”10 App.
The Second Circuit, first in Guo and then in the decision
below, has not embraced the Sixth Circuit’s broad reading of
NBC. See infra at Part B.3.
9

Because foreign states enjoy sovereign immunity, any
commercial arbitration to which a state is a party requires
consent. Private parties must likewise consent to binding
10

16
18a. The only factor the Second Circuit viewed as
weighing against application of Section 1782 was the
parties’ right to select the arbitrators, but the court
discounted that factor as “not determinative.” App.
21a. All that mattered was that Lithuania had agreed
to ad hoc arbitration via a Treaty.
d. In addition to the conflict among the courts of
appeals, there is still further disarray among the
district courts. That confusion includes application of
Section 1782 to arbitration between two private
parties11 and arbitrations between a private party and
a foreign state.12 Indeed, district courts do not agree
on the result even when considering arbitral proceedings before the same arbitral body.13 As these
arbitration, and respondent here chose binding ad hoc
arbitration over the several alternatives provided by the Treaty.
Compare, e.g., In re Roz Trading Ltd., 469 F. Supp. 2d 1221,
1226 (N.D. Ga. 2006) (holding that Section 1782 encompasses
private arbitral bodies) with In re Dubey, 949 F. Supp. 2d 990,
993-94 (C.D. Cal. 2013) (holding the opposite). See also In re
Storag Etzel GmbH, 2020 WL 1849714, at *1-2 & n.1 (D. Del.
Apr. 13, 2020) (“[c]ourts are about evenly split” on whether
Section 1782 covers private arbitral bodies).
11

Compare, e.g., Islamic Republic of Pakistan v. Arnold &
Porter Kaye Scholer LLP, 2019 WL 1559433, at *7 (D.D.C. Apr.
10, 2019) with In re Mongolia v. Itera International Energy,
L.L.C., 2009 WL 10712603, at *6-7 (M.D. Fla. Nov. 10, 2009).
12

For example, district courts are split over whether an
International Chamber of Commerce (“ICC”) arbitration is a
“foreign or international tribunal.” Compare, e.g., In re Rendon,
519 F. Supp. 3d 1151, 1154-56 (S.D. Fla. 2021) (“pending ICC
arbitration is not a foreign or international tribunal for purposes
of § 1782”) with In re Grupo Unidos por el Canal, S.A., 2014 WL
5456520, at *2 (N.D. Cal. Oct. 27, 2014) (“arbitration pending in
a tribunal established by an international treaty”—referring to
the ICC—“constitutes a foreign tribunal for purposes of Section
1782.”).
13

17
numerous recent examples illustrate, this Court’s
review is urgently needed.
2. The parties’ merits briefing in Servotronics
demonstrates how confusion over the meaning of
Section 1782 implicates not only arbitration between
private parties, but also investor-state arbitration.
For example, the United States argued in Servotronics
that “the logic of petitioner’s argument [there] would
appear also to extend to the context of investor-state
arbitration,” and that “[t]he analytical approaches to
Section 1782 followed by some lower courts would
likewise appear to encompass investor-state arbitration.” U.S. Br. at 28. The United States identified
the Second Circuit’s “multi-factor inquiry” in Guo as
representing yet another analytical approach to
Section 1782 that could portend a particular result
when applied to investor-state arbitration.14 And the
United States observed that “some of petitioner’s
amici” in Servotronics “start from the mistaken
assumption that investor-state arbitration is covered
by Section 1782 and reason that private commercial
arbitration must be covered as well.” Id. at 33. Thus,
as the United States has correctly recognized, it is
difficult, if not impossible, to confine the debate over
Section 1782’s meaning to commercial arbitration
between purely private parties.
The petitioner in Servotronics agreed, devoting
several pages of its merits reply brief to the Second
Circuit’s decision here. Reply Brief for Petitioner at 9–
13, Servotronics, Inc. v. Rolls-Royce PLC, et al., No. 20That premonition proved correct. The decision below, which
applied the multi-factor Guo test to bring investor-state
arbitration within Section 1782’s ambit, was issued just a few
weeks after the United States filed its brief in Servotronics.
14

18
794 (July 21, 2021). While agreeing with the Second
Circuit’s ultimate conclusion, petitioner argued that
the Second Circuit’s “reasoning [was] fraught with
inconsistency” and that investor-state arbitration
“has virtually all the attributes of a body presiding
over any foreign commercial arbitration” except that
it was “convened pursuant to a bilateral treaty rather
than a contract between the parties.” Id. at 11.
The fact that this case arises in the context of an
investor-state arbitration thus presents the conflict in
a particularly compelling posture. If review is
granted, this Court will necessarily answer the basic
question of statutory interpretation: what does the
phrase “foreign or international tribunal” mean as it
was used in Section 1782? Moreover, because this case
arises in the context of investor-state arbitration, this
Court’s decision will likewise resolve a specific and
highly consequential application of that conflict. As
explained below, that opportunity (among other
reasons) makes this case an ideal vehicle through
which to illuminate the meaning of Section 1782.
B.

The Question Presented Is Important, And This
Case Presents An Ideal Vehicle To Address It In
The Context Of Investor-State Arbitration.

1. The proper construction of Section 1782 is an
important question warranting this Court’s review.
As the United States explained in Servotronics,
Section 1782 “plays an important role in encouraging
international cooperation, facilitating the resolution
of foreign disputes, and fostering international
comity.” Id. Engaging the authority of a district court
in aid of foreign arbitration is a powerful tool for
foreign litigants, and it imposes a correspondingly
significant obligation on U.S. persons subject to

19
Section 1782. Accordingly, respecting congressional
intent regarding the proper bounds of Section 1782 is
of critical importance. Id. at 1, 16, 28.
As documented by the amici participating in
Servotronics, proper application of Section 1782 is
important to a wide range of stakeholders. Most
significantly, and as discussed in more detail below,
the United States declared its “substantial interest in
the proper construction” of Section 1782. U.S. Br. at 1.
Servotronics also drew widespread interest from trade
associations, arbitration organizations, academics,
and others. That fact is unsurprising, because use of
Section 1782 has “exploded” in recent years (Servotronics Prof. Yanbai Andrea Wang Amicus Br. 5) and
imposes “tremendous burdens” on parties required to
respond to an increasing number of Section 1782
applications (Servotronics Inst. of Int’l Bankers
Amicus Br. 2). More generally, arbitration organizations confirmed that the current “uncertainty” over
Section 1782’s reach “leads to extensive, timeconsuming and tremendously expensive litigation
over [a] threshold issue.” Servotronics Int’l Inst. for
Conflict Prevention & Resolution Amicus Br. 4. It is
thus no exaggeration to say that the issue presented
here has “significant implications globally,” and “the
international arbitration community is anxiously
awaiting the Supreme Court’s definitive resolution of
this important issue of federal law.” Id. at 16.
2. This case presents the Section 1782 question in
a particularly important context, because it arises
from an investor-state arbitration. Investor-state
arbitration is a relatively new device. See Servotronics
U.S. Br. at 29. Before the advent of this mechanism,
an investor seeking relief in a dispute with a “host

20
state” would request that its home state treat the
investor’s injury as an injury to the home state itself.
Id. The resulting method of resolving disputes
“consumed significant diplomatic resources, risked
politicizing disputes, and was not always peaceful.”
Id. at 30.
Investor-state arbitration often arises from
bilateral investment treaties. Because the United
States is party to “many bilateral investment treaties
and free-trade agreements that provide for such
arbitration,” it voiced “particular concern” regarding
the construction of Section 1782 in that context. U.S.
Br. at 15. The United States confirmed that applying
Section 1782 to investor-state arbitration would
“threaten to jeopardize the advantages that it
affords.” Id. at 32. “[I]njecting broad discovery, aided
by the assistance of U.S. courts, in to streamlined
investor-state arbitrations,” the United States
explained, “could undermine the efficiency and costeffectiveness of those mechanisms.” Id. That risk
“would dissuade investors and foreign states from
selecting [the arbitral] model” for resolving disputes.
Id. Thus, this case implicates not only application of
Section 1782 to arbitration generally, but also the
viability of an important tool for advancing foreign
policy interests and resolving potentially sensitive
commercial disputes.
3. This petition presents an ideal vehicle to address
the application of Section 1782 to foreign arbitrations.
The issue is squarely presented. Moreover, if the
Court were to hold that Section 1782 does not reach
investor-state arbitration, that reasoning would
almost certainly foreclose application of the statute to
arbitration between two private parties. At a

21
minimum, a decision in this case would provide
substantial guidance to the lower courts beyond the
investor-state arbitration context.
What is more, the “multi-factor” analysis employed
by the decision below demonstrates the need for this
Court’s basic guidance as to what makes something a
“foreign or international tribunal” within the meaning
of Section 1782. In Guo, the Second Circuit applied
those factors to hold that arbitration between private
parties does not fall within Section 1782, but the
decision below applied those same factors to reach the
opposite result for investor-state arbitration. Should
Section 1782 be subject to a multi-factor test at all? If
so, are those the right factors to consider? Should
lower courts permit the form of a party’s consent to
arbitration to “weigh heavily”—and, in reality,
conclusively—in favor of applying Section 1782?
These are crucial subsidiary questions presented by
this case.
Even if this case did not implicate that broader
context, this Court should not await a later
opportunity to address whether the statute extends to
investor-state arbitrations. As discussed above,
application of Section 1782 to investor-state arbitration casts a long shadow, “rais[ing] significant policy
concerns” of the United States. U.S. Br. at 28.
Moreover, given New York’s role as an international
financial center, many targets of Section 1782
applications arising from investor-state arbitrations
will have some presence within the Second Circuit.
Thus, in the absence of this Court’s review, the
decision below is likely to control more than its share
of potential Section 1782 cases arising in this critical
context. Indeed, a recent survey of Section 1782 cases

22
confirmed that the Southern District of New York is
the most popular forum for Section 1782 applications—even before the decision below was
announced. Yanbai Andrea Wang, Exporting
American Discovery, 87 U. Chi. L. R. 2089, App’x C
Table 7 (Nov. 2020).
Moreover, many disputes arising under Section
1782 never make it to this Court. Discovery disputes
are often time-sensitive because one side seeks to use
the disputed material in an ongoing proceeding or,
conversely, is hoping that the proceeding will end
before discovery is compelled. That appears to have
been the case in Servotronics, which did not arrive in
this Court until after the evidentiary record had
closed and ultimately required an eleventh-hour
dismissal. See Rolls-Royce Br. at 12 (“Servotronics
sought evidence for use in an arbitration that is
over.”); Boeing Br. at 13 (“The arbitral hearing and
post-hearing briefing are over.”).
This case presents no such risk of mootness, as the
merits proceedings are not yet underway (App. 24a n.
52), and this petition was submitted on an expedited
timetable to allow this Court to consider it in the
ordinary course and, if certiorari is granted, decide the
case this Term. Moreover, the parties have stipulated
that petitioners need not comply with any discovery
requests until after this Court disposes of this case,
and the Second Circuit has stayed issuance of its
mandate. This case will go the distance.
For that reason alone, this case is a superior
vehicle to the recently filed petition in ZF Automotive
US, Inc. v. Luxshare, Ltd., No. 21-401 (pet. for cert.
filed Sept 14, 2021). As of this filing, petitioners there
had yet to obtain a stay of the district court’s order

23
authorizing discovery. ZF Automotive Pet. at 11-12;
6th Cir. Docket No. 21-2736. Even if a stay is
ultimately granted, ZF Automotive presents the
Section 1782 question only in the context of
arbitration between private parties. As explained
above, however, deciding whether Section 1782
applies to investor-state arbitration is more likely to
clarify the entire landscape and directly implicates a
matter on which the United States has expressed
“particular concern.” Servotronics U.S. Br. at 15.15
This petition should be granted, and ZF Automotive
should be held pending disposition of this case on the
merits.16
C.

The Decision Below Is Wrong.

This Court should reverse the decision below for at
least three main reasons.
ZF Automotive also arises in the context of a petition for a
writ of certiorari before judgment, which requires “a showing
that the case is of such imperative public importance as to justify
deviation from normal appellate practice and to require
immediate determination in this Court.” S. Ct. R. 11. Petitioners
here, of course, do not question the urgent need for this Court to
clarify the meaning of Section 1782, but it is difficult to see how
that particular “case”—not merely the question presented—is of
national concern. Even if the proper measure is the importance
of the question presented, this petition presents the Section 1782
dispute in a context of greater “public importance” than in ZF
Automotive. This case affects not only disputes between private
parties, but also the application of treaties to which the United
States and numerous other sovereigns are (or may consider
becoming) parties.
15

Were this Court to grant review only in ZF Automotive, this
petition should be held. As in Servotronics, it is likely that
arguments advanced in that case would (wittingly or otherwise)
affect application of Section 1782 to investor-state arbitration.
16

24
1. First and foremost, the text, purpose, and
history of Section 1782 demonstrate that Congress did
not intend the phrase “foreign or international
tribunal” to include foreign arbitral bodies that do not
exercise some measure of governmental or quasigovernmental authority. As the United States has
explained, the “most natural reading of that phrase is
that it refers to a standing governmental body,” such
as “the judicial or quasi-judicial body of a ‘foreign’
country or an ‘international’ state-to-state commission or similar formal entity established by two or
more nations.” Servotronics U.S. Br. at 19 (emphasis
in original). That interpretation comports with how
the term “foreign or international tribunal” was
understood in 1964, when the current version of
Section 1782 was adopted. The phrase then
“connote[d] a judicial forum” of some sort (id. at 17
(recounting contemporaneous dictionary definitions)),
not merely any format of dispute resolution.
Equally important, that understanding is
confirmed by the context surrounding the statute’s
enactment, upon which this Court has previously
relied. See Intel, 542 U.S. at 248–49, 259-61
(recounting and relying on Section 1782’s drafting
history). As the Rules Commission explained in
proposing the 1964 amendments, the goal was to
expand Section 1782 beyond merely “conventional
courts.” 1963 Report 1-52 at 45; U.S. Br. at 21
(discussing same). But it does not follow that
expansion reached arbitration of commercial disputes.
To the contrary, the Rules Committee illustrated, by
way of example, that Section 1782 would reach
requests from “investigating magistrates in foreign
countries,” “a foreign administrative tribunal,” or a
“quasi-judicial agency.” 1963 Report at 45.

25
There is no indication that the drafters
contemplated bringing foreign arbitration generally
within Section 1782’s reach. To the contrary, the 1964
amendments provided that a district court’s order
under Section 1782 “may prescribe the practice and
procedure” for such discovery, “which may be in whole
or part the practice and procedure of the foreign
country or the international tribunal” for the taking of
discovery. 28 U.S.C. 1782(a). Arbitration generally
does not have such “practice and procedure”
established in advance. See U.S. Br. at 25 (discussing
same). Nor could Congress have intended the 1964
amendments to reach investor-state arbitration,
because, as the United States has explained, “that
form of dispute resolution did not exist in 1964.” Id. at
31–32.
In any event, the fact that one party to an
arbitration is a foreign state does not convert an
arbitral panel into a “foreign or international
tribunal.” Neither the identity of a party nor the
manner by which it consented to arbitration (i.e.,
treaty vs. contract) changes the power that the panel
exercises. In operation, as the United States correctly
observed, “investor-state arbitration resembles private commercial arbitration in most salient respects.”
Id. at 31. And because “[a]rbitration is strictly a
matter of consent,” Granite Rock Co. v. Int’l Bhd. of
Teamsters, 561 U.S. 287, 299 (2010) (internal quotations omitted), both sides must agree to it. The mode
by which one side of the dispute consents does not
change whether an arbitral panel is a “foreign or
international tribunal.”
2. The decision below also places Section 1782 in
substantial tension (if not outright conflict) with the

26
Federal Arbitration Act (the “FAA”) and other arbitral
regimes. There is no reason to believe Congress
intended Section 1782 to produce such an anomalous
result.
For starters, reading Section 1782 to authorize
third-party discovery in aid of foreign arbitrations
grants foreign parties broader discovery rights than
they would enjoy in domestic arbitrations subject to
the FAA. In a domestic arbitration, for example, a
party generally cannot seek discovery through U.S.
courts. Under the rule adopted below, however,
parties to foreign arbitrations are not subject to that
limitation. See Biedermann, 168 F.3d at 882;
Servotronics, 975 F.3d at 695-96. A party is thus
better off commencing arbitration overseas,
circumventing the statutory regime Congress aimed
directly at arbitration. Likewise, Section 7 of the FAA
precludes discovery outside the territorial limits of the
arbitral entity’s seat, but the decision below imposes
no such limitation on foreign arbitrations.
Servotronics, 975 F.3d at 695.
Moreover, as the Seventh Circuit noted, extending
Section 1782 to foreign arbitrations affords broader
discovery rights than are available under the
Convention on the Recognition and Enforcement of
Foreign Arbitral Awards, 9 U.S.C. §§ 201-208, and the
Inter-American
Convention
on
International
Commercial Arbitration, 9 U.S.C. §§ 301-307.
Servotronics, 975 F.3d at 695-96; see also Biedermann,
168 F.3d at 883; 9 U.S.C. §§ 208, 307 (providing for
the residual application of the FAA, including its
Section 7). The decision below thus presents still
further sources of tension and opportunities for
forum-shopping.

27
3. Finally, the error of the decision below is further
confirmed by the fact that both sides in Servotronics
rejected the Second Circuit’s approach to Section
1782. The United States specifically criticized the
Second Circuit’s “call[] for a multi-factor inquiry” in
Guo, and argued that any approach that “would sweep
investor-state arbitration within Section 1782’s
scope”—as the decision below would conclude just
weeks after the United States filed its brief—is
“unsound and should be rejected.” U.S. Br. at 33.
Petitioner in Servotronics, while agreeing with the
Second Circuit’s result, likewise panned the court’s
analysis. “The reasoning” of the decision below,
petitioner observed, was “fraught with inconsistency.”
Reply Br. at 11. Petitioner acknowledged that “[t]he
arbitral body” at issue here “has virtually all the
attributes of a body presiding over any foreign
commercial arbitration.” Id. Although the sovereign
party consented to arbitration via a treaty “rather
than a contract between the parties,” the panel’s
task—namely, “resolving a commercial dispute”
between the parties—and corresponding “need for
discovery assistance from the district court pursuant
to Section 1782” was no different. Id.
In sum, the decision below rests on an analytical
framework neither side of the Section 1782 debate
cared to embrace. That is still further evidence that
the decision below will not withstand this Court’s
review.

28
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted.
JOSEPH T. BAIO
STUART R. LOMBARDI
WILLKIE FARR &
GALLAGHER LLP
787 Seventh Avenue
New York, NY 10019
(212) 728-8000
October 2021

MARK T. STANCIL
Counsel of Record
WILLKIE FARR &
GALLAGHER LLP
1875 K Street, NW
Washington, DC 20006
(202) 303-1000
mstancil@willkie.com

APPENDIX

1a
APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
No. 20-2653-cv
THE APPLICATION OF THE FUND FOR
PROTECTION OF INVESTOR RIGHTS IN
FOREIGN STATES PURSUANT TO 28 U.S.C.
§ 1782 FOR AN ORDER GRANTING LEAVE
TO OBTAIN DISCOVERY FOR USE
IN A FOREIGN PROCEEDING,
Plaintiff-Appellee,
v.
ALIXPARTNERS, LLP, SIMON FREAKLEY,
Third-Party Defendants-Appellants.
On Appeal from the United States District Court
for the Southern District of New York
April 15, 2021, Argued;
July 15, 2021, Decided
Before: CABRANES, POOLER, and BIANCO, Circuit
Judges.

2a

José A. Cabranes, Circuit Judge:
We consider here three questions concerning
discovery in U.S. courts to assist in an arbitration between
an investor and a foreign State that takes place before an
arbitral panel established by a bilateral investment treaty
to which that foreign State is a party.
Appellants AlixPartners, LLP and Simon Freakley
(together, “AlixPartners”) appeal from the July 8, 2020
Order of the United States District Court for the Southern
District of New York (Analisa Torres, Judge) granting
an application for discovery assistance pursuant to 28
U.S.C. § 1782, along with the District Court’s August 25,
2020 Order denying reconsideration of the same.1 Under
§ 1782(a), a district court may grant an application for
discovery assistance submitted by an “interested person”
for use “in a proceeding in a foreign or international
tribunal.” Appellee The Fund for Protection of Investor
Rights in Foreign States (the “Fund”), a Russian
corporation, sought assistance from the District Court to
order discovery from Freakley and AlixPartners, LLP,
a limited liability partnership with its principal place of
business in New York, for use in an arbitration proceeding
brought by the Fund against the Republic of Lithuania
1. In re Fund for Protection of Inv. Rights in Foreign States,
No. 19 Misc. 401 (AT), 2020 U.S. Dist. LEXIS 119816, 2020 WL
3833457 (S.D.N.Y. July 8, 2020). AlixPartners also appeals from
the August 25, 2020 order denying reconsideration. In re Fund for
Protection of Inv. Rights in Foreign States, No. 19 Misc. 401 (AT),
2020 U.S. Dist. LEXIS 153808, 2020 WL 5026586 (S.D.N.Y. Aug.
25, 2020).

3a

(“Lithuania”)2 ; that proceeding was before an arbitral
panel established by a bilateral investment treaty between
Lithuania and the Russian Federation (“Russia”).
This case presents three primary issues on appeal:
(1) whether an arbitration between a foreign State and
an investor, which takes place before an arbitral panel
established pursuant to a bilateral investment treaty
to which that foreign State is a party, constitutes a
“proceeding in a foreign or international tribunal” under
§ 1782; (2) whether the Fund qualifies as an “interested
person” who may seek discovery assistance under § 1782;
and (3) whether the District Court erred in finding that
the so-called Intel factors3 weigh in favor of granting the
Fund’s discovery application.
As to the first question presented, because the
arbitration is between an investor and foreign State party
to a bilateral investment treaty, and because the arbitration
takes place before an arbitral panel established by that
same treaty, we hold that this arbitration is a “proceeding
in a foreign or international tribunal.” Second, because the
Fund is a party to the arbitration for which it is seeking
discovery assistance, it qualifies as an “interested person”
under § 1782. Third, we find no abuse of discretion in the
District Court’s determination that the relevant factors
2. Ex Parte Application of The Fund at 1, In re the Application
of the Fund for Protection of Investor Rights in Foreign States, No.
1:19-mc-00401-AT (S.D.N.Y. Aug. 29, 2019), ECF No. 1.
3. See Intel Corp. v. Advanced Micro Devices, Inc., 542 U.S.
241, 124 S. Ct. 2466, 159 L. Ed. 2d 355 (2004) (Intel).

4a

announced by the Supreme Court in Intel weigh in favor
of granting the Fund’s discovery application. Accordingly,
we AFFIRM the July 8, 2020 Order and the August 25,
2020 Order of the District Court.
BACKGROUND
In 2011, Lithuania’s regulatory authorities conducted
an investigation of a private bank located in Lithuania,
AB bankas SNORAS (“Snoras”). After finding that
Snoras was unable to meet its obligations, the Bank of
Lithuania, the central bank, nationalized Snoras and
appointed Simon Freakley as its temporary administrator.
As administrator, Freakley reported to the Bank of
Lithuania that Snoras’s liabilities exceeded its assets
and shortly thereafter, the authorities commenced
bankruptcy proceedings, which resulted in a Lithuanian
court declaring Snoras to be bankrupt.
The Fund, a Russian corporation, is the assignee
of Vladimir Antonov, a Russian national who sought to
recover compensation for Lithuania’s expropriation of his
controlling share in Snoras by commencing an arbitration
proceeding against Lithuania in April 2019. The Fund
commenced this particular arbitration pursuant to a
bilateral investment treaty to which Lithuania and Russia
are parties, titled the Agreement Between the Government
of the Russian Federation and the Government of the
Republic of Lithuania on the Promotion and Reciprocal
Protection of the Investments (the “Treaty”). This Treaty
is, according to its terms, an agreement entered for the
purpose of establishing favorable conditions made by

5a

investors of one foreign State in the territory of the other,
“recognising that the promotion and reciprocal protection
of investments, based on the present Agreement, will be
conducive to the development of mutually beneficial trade
and economic, scientific and technical co-operation.”4
There are several provisions in the Treaty that are
relevant to this appeal. Article 6 of the Treaty provides
that investments of one foreign State’s nationals made
in the territory of the other State “shall not be subject
to expropriation, nationalisation or other measures
equivalent to expropriation or nationalisation.”5
Article 10 addresses the procedures by which disputes
between one foreign State and an investor of the other
State are resolved. In the event that a dispute cannot be
settled within six months, either party may elect to submit
the dispute to one of four venues:
a) competent court or court of arbitration of
the Contracting Party in which territory the
investments are made;
b) the Arbitration Institute of the Stockholm
Chamber of Commerce;
c) the Court of Arbitration of the International
Chamber of Commerce; [or]
4. Joint App’x 70.
5. Id. at 72.

6a

d) an ad hoc arbitration in accordance with
A rbitration Rules of the United Nations
Commission on International Trade Law
(UNCITRAL).6
The Treaty also provides that “[t]he arbitral decision shall
be final and binding on both parties [to] the dispute.” 7
When the Fund initiated an arbitration pursuant to
the Treaty, it elected to resolve the dispute through “an
ad hoc arbitration in accordance with Arbitration Rules
of [UNCITRAL.]” 8 In August 2019, the Fund filed an
application pursuant to 28 U.S.C. § 1782 9 in the United
6. Id. at 74.
7. Id.
8. Id. at 29.
9. The relevant language of § 1782 is as follows:
The district court of the district in which a person
resides or is found may order him to give his testimony
or statement or to produce a document or other thing
for use in a proceeding in a foreign or international
tribunal . . . . The order may be made pursuant to a
letter rogatory issued, or request made . . . upon the
application of any interested person and may direct
that the testimony or statement be given, or the
document or other thing be produced, before a person
appointed by the court. . . . The order may prescribe
the practice and procedure, which may be in whole
or part the practice and procedure of the foreign
country or the international tribunal, for taking the
testimony or statement or producing the document or

7a

States District Court for the Southern District of New
York for an order granting the Fund leave to obtain
discovery for use in its arbitration with Lithuania.10
In its application the Fund sought discovery from
Freakley and A lixPartners, LLP 11 related to the
expropriation of Snoras based on Freakley’s role as the
bank’s temporary administrator, including information
about: the circumstances of Freakley’s appointment
as Snoras’s temporary administrator; any instructions
Freakley received from the Lithuanian government; the
nature, scope, and findings of Freakley’s investigation
at Snoras; the “reception” by Lithuanian officials of
those findings; any reports prepared by Freakley for the
Bank of Lithuania; and a deposition of Freakley and a
representative of AlixPartners, LLP about these events.
AlixPartners filed a response in the District Court in
opposition to the Fund’s § 1782 application in October 2019.
other thing. . . . A person may not be compelled to give
his testimony or statement or to produce a document
or other thing in violation of any legally applicable
privilege.
28 U.S.C. § 1782(a).

10. The Fund filed this § 1782 application in the Southern
District of New York because it is the “district court of the district
in which [AlixPartners and Freakley] reside[ ] or [are] found.” 28
U.S.C. § 1782(a).
11. Freakley is currently the Chief Executive Officer of
AlixPartners, LLP. At the time the Bank of Lithuania appointed
Freakley as temporary administrator of Snoras, Freakley worked for
a different entity whose assets were later acquired by AlixPartners,
LLP. Appellants Br. 6.

8a

In November 2019, Lithuania submitted a letter to
the arbitral panel constituted pursuant to the Treaty to
arbitrate the dispute between the Fund and Lithuania,
in which Lithuania asked the panel “to order the [Fund]
to withdraw the [§] 1782 Application” and which the
Fund opposed.12 The arbitral panel issued an order
the next month, analyzing the parties’ positions and
ultimately rejecting Lithuania’s request to order the
Fund to withdraw its § 1782 application. In its decision,
the panel observed that Lithuania did not show that the
§ 1782 application “would in itself be prejudicial to its
rights in this arbitration” and noted that Lithuania would
“be able to contest any evidence that might be obtained
pursuant to the [Fund’s §] 1782 Application, if granted,”
including objections as to admissibility of materials under
Lithuanian law.13 The arbitral panel declined to decide
such possible admissibility issues in its order, finding that
“[i]t would be premature to do so.”14
Back in the United States, on July 8, 2020 the
District Court granted the Fund’s § 1782 application and
authorized the Fund to issue subpoenas to AlixPartners
for the requested documents.15

12. Joint App’x 216.
13. Id. at 219-20.
14. Id. at 220.
15. In re Fund for Protection of Inv. Rights in Foreign States,
2020 U.S. Dist. LEXIS 119816, 2020 WL 3833457.

9a

That same day, we held in Guo that § 1782 discovery
assistance does not extend to private commercial
arbitrations,16 a decision that reaffirmed our prior holding
in NBC.17 In Guo, we also offered further guidance on the
factors to be considered by a court in deciding whether an
arbitration is taking place in a “foreign or international
tribunal” under § 1782.18
AlixPartners timely moved for reconsideration of the
District Court’s July 8 Order, asserting that the decision
could not stand in light of Guo’s holding that an arbitral
tribunal’s status turns not on its origins in governmental
action, but instead on whether the tribunal possesses
the functional attributes most commonly associated with
private arbitration.
On August 25, 2020, the District Court denied
the motion for reconsideration, interpreting Guo as
“suggest[ing] that arbitrations conducted pursuant to
a bilateral investment treaty like the [Treaty here] do
qualify as ‘[proceedings in a] foreign or international
tribunal’ under § 1782.” 19 The District Court also
explained that it had, consistent with Guo, reached its
16. See In re Guo (Guo), 965 F.3d 96 (2d Cir. 2020).
17. Id. at 104-05; see Nat’l Broad. Co. v. Bear Stearns & Co.
(NBC), 165 F.3d 184 (2d Cir. 1999).
18. See Guo, 965 F.3d at 107.
19. In re Fund for Protection of Inv. Rights in Foreign States,
2020 U.S. Dist. LEXIS 153808, 2020 WL 5026586, at *2 (quoting
§ 1782).

10a

prior decision by looking to several functional attributes
possessed by the arbitral panel that were not commonly
associated with private arbitration, including:
the role of bilateral investment arbitration as
a tool of international relations, the fact that
the Tribunal derives its jurisdiction from the
[Treaty], and the fact that the Arbitration is a
means by which [the Fund is] bringing claims
against the Republic of Lithuania in its capacity
as a state. 20
Thus, according to the District Court, its July 8 Order
was not disturbed by this Court’s decision in Guo. This
timely appeal followed.
DISCUSSION
Under 28 U.S.C. § 1782(a), a district court may compel
the production of materials “for use in a proceeding in a
foreign or international tribunal” upon “the application
of any interested person.” There are several statutory
requirements that must be satisfied for § 1782 discovery
assistance to be granted:
(1) the person from whom discovery is sought
resides (or is found) in the district of the district
court to which the application is made, (2) the
discovery is for use in a foreign proceeding
before a foreign [or international] tribunal,
20. Id.

11a

and (3) the application is made by a foreign
or international tribunal or any interested
person. 21
The issues on appeal are: (1) whether an arbitration
between an investor and a foreign State, which takes
place before an arbitral panel established by a bilateral
investment treaty to which that foreign State is a party,
constitutes a “proceeding in a foreign or international
tribunal” under § 1782; (2) whether the Fund qualifies as
an “interested person” who may seek discovery assistance
for such an arbitration under § 1782; and (3) whether
the District Court “abused its discretion” 22 in granting
discovery to the Fund after weighing the so-called Intel
factors.
We review de novo the District Court’s conclusions
that this arbitration is a proceeding before an arbitral
panel that qualifies as a “foreign or international tribunal”
21. Brandi-Dohrn v. IKB Deutsche Industriebank AG, 673
F.3d 76, 80 (2d Cir. 2012); see also Guo, 965 F.3d at 102 n.3 (“[T]he
statute also imposes other requirements, including that the discovery
not be ‘in violation of any legally applicable privilege.’” (quoting 28
U.S.C. § 1782(a))). AlixPartners does not contest that the first § 1782
requirement, that it can be “found” in the Southern District of New
York, is satisfied.
22. See In re The City of New York, 607 F.3d 923, 943 n.21
(2d Cir. 2010) (explaining that “[t]he word ‘abuse’ in the ‘abuse of
discretion’ standard is an unfortunate—and inaccurate—term of
art. When a district court abuses its discretion, it involves nothing
as heinous as abuse. Indeed, a so-called abuse of discretion often
involves something quite common and unavoidable in a system of
adjudication: a ‘view of the law’ that is simply ‘erroneous.’” (quoting
Sims v. Blot, 534 F.3d 117, 132 (2d Cir. 2008)).

12a

and the Fund is an “interested person.” 23 We review the
District Court’s application of the so-called Intel factors
and its decision to order discovery for abuse of discretion. 24
I.
Pursuant to the Treaty between Lithuania and Russia,
the Fund initiated an arbitration against Lithuania to
challenge the expropriation of certain shares of the
bank Snoras. In opposition to the Fund’s application
for discovery assistance, AlixPartners asserts that the
arbitration between the Fund and Lithuania is a private
commercial arbitration, rather than a “proceeding in a
foreign or international tribunal” within the meaning of
§ 1782.
The seminal Supreme Court case in this area, Intel,
approached the “foreign or international tribunal”
statutory requirement of § 1782 cautiously and flexibly.
The Court held that discovery assistance would be used “in
a proceeding in a foreign or international tribunal” where
a foreign government entity—there, the Directorate
General-Competition of the Commission of the European
Communities, whose determinations were appealable to
the European Court of Justice—exercised “quasi-judicial”
powers and acted as a “first-instance decisionmaker.” 25
23. Guo, 965 F.3d at 102.
24. See Lancaster Factoring Co. v. Mangone, 90 F.3d 38, 42
(2d Cir. 1996).
25. Intel, 542 U.S. at 252, 257-58. The term “court of first
instance” is often referred to as a “trial court,” defined as “[a] court of
original jurisdiction where evidence is first received and considered”;

13a

The Intel Court also noted that a proceeding abroad
may be eligible for § 1782 discovery assistance even
when it has no analogous forum in the United States.
This was so because, “[i]n light of the variety of foreign
proceedings resistant to ready classification in domestic
terms, Congress left unbounded by categorical rules the
determination whether a matter is proceeding ‘in a foreign
or international tribunal.’”26 Thus, the Intel Court resisted
setting firm limits on the arbitral bodies that could qualify
for § 1782 discovery assistance as “foreign or international
tribunal[s].” Instead, the Court offered the Intel factors,
discussed below, as “guides for the exercise of districtcourt discretion.” 27
Our own precedents have likewise made it clear
that this statutory requirement of § 1782 is broad, but
not boundless. In NBC, we held that “when Congress in
1964 enacted the modern version of § 1782, it intended
to cover governmental or intergovernmental arbitral
tribunals and conventional courts and other statesponsored adjudicatory bodies.” 28 That said, we also held
“international arbitral panels created exclusively by
private parties” or “arbitral bod[ies] established by private
parties” were not “foreign or international tribunals” for
the purposes of § 1782. 29
“[a]lso termed court of first instance[.]” Trial court, Black’s Law
Dictionary (11th ed. 2019).

26. Intel, 542 U.S. at 263 n.15 (quoting 28 U.S.C. § 1782(a)).
27. Id.
28. NBC, 165 F.3d at 190.
29. Id. at 190-91.

14a

In our recent decision in Guo, we re-affirmed NBC’s
holding and elaborated on the framework by which a court
should determine whether a “foreign or international
tribunal” exists for purposes of § 1782. In that case, we
determined that, although the administrative entity at
issue—the China International Economic and Trade
Arbitration Commission (“CIETAC”)—“was originally
created through state action,” the entity had “subsequently
evolved such that it arguably no longer qualifie[d]
as a ‘governmental or intergovernmental arbitral
tribunal[,] . . . conventional court[, or] . . . other statesponsored adjudicatory body.”30 Accordingly, we specified
factors to be considered by courts when conducting the
“foreign or international tribunal” inquiry, emphasizing
that this inquiry “does not turn on the governmental or
nongovernmental origins of the administrative entity in
question.” 31 Instead, we adopted a “functional approach”
that “consider[s] a range of factors” to answer a key
question: “whether the body in question possesses the
functional attributes most commonly associated with
private arbitration.” 32
30. Guo, 965 F.3d at 107 (quoting NBC, 165 F.3d at 190).
31. Id. (emphasis in original).
32. Id. As we discuss in more detail below, in Guo we noted
certain distinctions between the body at issue in Guo—CIETAC—
and an arbitral panel of the kind we consider in this case. Indeed,
we noted that “arbitration under bilateral investment treaties is
typically between a private party and a state” whereas “the dispute
[there was] between two private parties.” Id. at 108 n.7. We also
noted that “[w]hile an arbitral body under a bilateral investment
treaty may be a ‘foreign or international tribunal,’ the arbitration
[before CIETAC] derive[d] adjudicatory authority solely from the

15a

In this case, the parties dispute whether this arbitral
panel is a private commercial arbitration. Because Guo
clarified that the “foreign or international tribunal”
inquiry does not turn on the governmental origins of the
entity in question, we analyze this question under the
“functional approach” and factors we laid out in Guo, 33
including:
(1) the “degree of state affiliation and functional
independence possessed by the entity”;
(2) the “degree to which a state possesses the
authority to intervene to alter the outcome of
an arbitration after the panel has rendered a
decision”;
parties’ agreement, rather than the intervention or license of any
government to adjudicate cases arising from certain varieties of
foreign investment.” Id.

33. The Fund argues that we should not consider the Guo
factors in this case because Guo concerned a tribunal “founded
on a private contractual agreement,” as opposed to an arbitration
involving a foreign State before an arbitral panel established
pursuant to a bilateral investment treaty to which that State is a
party. Appellee Br. 20. We disagree. In Guo, we stated that “[a]
closer inquiry is required where . . . the arbitral body was originally
created through state action, yet subsequently evolved such that it
arguably no longer qualifies as a [foreign or international tribunal].”
Guo, 965 F.3d at 107. We likewise think that a closer inquiry is
required where the arbitral body arguably possesses attributes of
both private and governmental arbitration. Our holding in Guo that
the inquiry “does not turn on the governmental or nongovernmental
origins of the administrative entity in question,” id., reinforces our
decision to undertake that inquiry here.

16a

(3) the “nature of the jurisdiction possessed by
the panel”; and
(4) the “ability of the parties to select their own
arbitrators.” 34
We consider each of these factors in turn.
1.

State Affiliation and Functional Independence.

In looking at the “extent to which the arbitral body
is internally directed and governed by a foreign state
or intergovernmental body,” 35 we recall that we found
that the arbitral body in Guo, CIETAC, “function[ed]
essentially independently of the Chinese government
in the ‘administration of its arbitration cases’”; the
administrative entity “maintain[ed] confidentiality from
all non-participants during and after arbitration, limiting
opportunities for ex parte intervention by state officials”;
and that CIETAC offered a pool of arbitrators with
no affiliation with the Chinese government. 36 We thus
held that CIETAC had a “high degree of independence
and autonomy, and, conversely, a low degree of state
affiliation.” 37
34. Guo, 965 F.3d at 107-08.
35. Id. at 107. We consider also any additional “functional
attributes” that may suggest that the arbitral tribunal is a “private
arbitral body rather than a ‘foreign or international tribunal.’” Id.
at 107-08.
36. Id. at 107.
37. Id.

17a

Here, the arbitral panel also functions independently
from the governments of Lithuania and Russia. The
members of the arbitral panel (two arbitration lawyers and
a law professor) have no official affiliation with Lithuania,
Russia, or any other governmental or intergovernmental
entity and the panel receives zero government funding.
Further, as was the case with proceedings before
CIETAC, the proceedings here maintain confidentiality
from non-participants; the Treaty provides that “[t]he
award may be made public only with the consent of both
parties.” 38
Nevertheless, we agree with the Fund that this
functional independence of the arbitral panel must be
viewed within the context of the Treaty. It is true that this
arbitral panel is not internally “directed and governed by
a foreign state.” 39 But the panel is convened and proceeds
in an arbitration format expressly contemplated by the
Treaty entered into by Lithuania and Russia in order to
create a specific proceeding to resolve investment-related
disputes between one foreign State and investors of the
other State. And the rules that will govern the dispute
were developed by UNCITRAL, an international body.40
38. Joint App’x 126.
39. Guo, 965 F.3d at 107.
40. UNCITRAL, established in 1966, “is a subsidiary body
of the General Assembly of the United Nations with the general
mandate to further the progressive harmonization and unification
of the law of international trade.” UNCITRAL texts such as its
model arbitration rules are drafted by “the Member States of the
Commission and other States (referred to as ‘observer States’), as

18a

We conclude that this arbitral panel, convened pursuant
to the terms of the Treaty, thus retains affiliation with
the foreign States, despite its functional independence
in other ways. Accordingly, this factor weighs in favor of
finding that this arbitral panel qualifies as a “foreign or
international tribunal” within the meaning of § 1782.
2.

State Authority to Intervene or Alter Outcome.

State authority to influence or control an arbitration
pursued under this Treaty is limited, if not non-existent.
Indeed, the Treaty curtails the ability of Lithuania or
Russia to intervene in an arbitration under it or alter the
outcome after the panel renders a decision. Additionally,
the Fund has waived its right to have a Lithuanian court
review the result from this arbitration.
We recognize that an arbitration against a foreign
State, whether conducted pursuant to a bilateral
investment treaty like this Treaty or other w ise,
necessarily requires that the foreign State consent to
subject itself to binding dispute resolution.41 That said, if
well as interested international inter-governmental organizations . . .
and non-governmental organizations . . . .” United Nations Comm’n
on Inter’l T rade L aw, Frequently Asked Questions — Mandate
and History (last visited July 13, 2021), https://uncitral.un.org/en/
about/faq/mandate_composition/history .

41. Cf. Restatement (Fourth) of Foreign Relations Law of the
United States § 458 note 6 (A m. Law Inst. 2018) (“In U.S. practice,
bilateral investment treaties . . . may be enforced in courts in the
United States and thus operate to remove a foreign state’s sovereign
immunity in such proceedings.” (citing Schneider v. Kingdom

19a

a foreign State against whom the arbitration is proceeding
was allowed to control the arbitration’s outcome, the
purpose of a bilateral investment treaty like the Treaty
here—which has the aim of encouraging investment
between Russia and Lithuania—would be frustrated.
In the circumstances presented here, we conclude that
this factor—whether there is foreign State authority to
intervene or alter the arbitration outcome—is neutral as
to whether this arbitral panel qualifies as a “foreign or
international tribunal” within the meaning of § 1782.
3.

Nature of Jurisdiction Possessed by the Panel.

Critically, the arbitral panel in this case derives
its adjudicatory authority from the Treaty, a bilateral
investment treaty between foreign States entered into by
those States to adjudicate disputes arising from certain
varieties of foreign investment, rather than an agreement
between purely private parties or any other species of
private contract.
In Guo, we observed that an “arbitral body under
a bilateral investment treaty may be a ‘foreign or
international tribunal’” when it derives its adjudicatory
authority from the “intervention or license of any
government to adjudicate cases arising from certain

of Thailand, 688 F.3d 68 (2d Cir. 2012) (holding that bilateral
investment treaties provided conditions for the formation of written
agreements to arbitrate under the New York Convention); Republic
of Ecuador v. Chevron Corp., 638 F.3d 384 (2d Cir. 2011) (same))).

20a

varieties of foreign investment.”42 The arbitral panel here
is authorized to resolve the dispute between the Fund
and Lithuania under the terms of the Treaty—a bilateral
investment treaty—and thus closely resembles the sort
of arbitral body that we anticipated in Guo would qualify
as a “foreign or international tribunal.” Accordingly,
this factor weighs heavily in favor of concluding that this
arbitral panel qualifies as a “foreign or international
tribunal” within the meaning of § 1782.
4.

Arbitrator Selection Process.

The process of selecting the members of the arbitral
panel was conducted here in accordance with the Treaty.
Each party selected one arbitrator and those two
arbitrators were required to select a third arbitrator,
who would preside. The three arbitrators selected are
all private parties—two arbitration lawyers and one law
professor—which is suggestive of a “private” arbitration.
But, as we noted in Guo, “this factor is not determinative,
as agreements between countries to arbitrate disputes
between their citizens may involve selection of the
arbitrators by the parties”—including, of course, a foreign
State party—”and such a tribunal may be a ‘foreign or
international tribunal’ [under § 1782] notwithstanding

42. Guo, 965 F.3d at 108 n.7; see also NBC, 165 F.3d at 190
(“[A]n international tribunal owes both its existence and its powers
to an international agreement.” (quoting Hans Smit, Assistance
Rendered by the United States in Proceedings Before International
Tribunals, 62 Colum. L. Rev. 1264, 1267 (1962))).

21a

this fact.”43 Accordingly, although this factor weighs
against concluding that the arbitral panel is a “foreign or
international tribunal,” it is not determinative.
5.

Additional Attributes Suggestive of a “Foreign
or International Tribunal”

Consistent with Guo, we consider also any additional
“functional attributes” that may suggest that the arbitral
panel is a “foreign or international tribunal” rather than
a “private arbitral body.”44 There are at least two such
attributes here.
First, Lithuania, in its capacity as a foreign State, is
one of the parties to this arbitration. In Guo we observed
that the CIETAC arbitration was “between two private
parties,” thus differentiating it from the sort of arbitration
presented here—one between a private party and a
foreign State.45
Second, the importance of bilateral investment
treaties as tools of international relations supports a
conclusion that this arbitral panel, convened pursuant
to the Treaty, constitutes a “foreign or international
tribunal.” Russia and Lithuania entered into this Treaty
for the purpose of establishing favorable conditions for
investments made by investors of one foreign State in the
43. Guo, 965 F.3d at 108.
44. Id. at 107-08.
45. Id. at 108 n.7.

22a

territory of the other, in recognition “that the promotion
and reciprocal protection of investments, based on the
present Agreement, will be conducive to the development
of mutually beneficial trade and economic, scientific and
technical co-operation.”46 By its terms, the Treaty serves
numerous foreign policy goals. That this arbitral panel was
assembled pursuant to this Treaty—as part of this effort
to facilitate mutually beneficial relations between Russia
and Lithuania—signals that this arbitration differs from
a private commercial arbitration.47
***
In sum, we hold that this arbitration between
Lithuania and the Fund, taking place before an arbitral
panel convened pursuant to the Treaty, a bilateral
investment treaty to which Lithuania is a party, qualifies
as a “foreign or international tribunal” under § 1782.
This holding is consistent with legislative intent.
Before 1964, an older version of § 1782 provided discovery
assistance “only to a tribunal established by a treaty to
which the United States was a party and then only in
46. Joint App’x 70.
47. Cf. BG Grp., PLC v. Republic of Argentina, 572 U.S. 25, 32,
134 S. Ct. 1198, 188 L. Ed. 2d 220 (2014) (explaining that the Court
granted a petition for certiorari concerning the “local litigation
requirement” of a bilateral investment treaty because of “the
importance of the matter for international commercial arbitration”
and citing K. Vandevelde, Bilateral Investment Treaties: History,
Policy & Interpretation 430-32 (2010) to explain “that disputeresolution mechanisms allowing for arbitration are a ‘critical element’
of modern day bilateral investment treaties”).

23a

proceedings involving a claim in which the United States
or one of its nationals was interested.”48 In 1964, Congress
amended § 1782 to “broaden” its reach beyond its original
scope to allow discovery assistance to “intergovernmental
tribunals not involving the United States.”49 Here, the
arbitral panel closely resembles the tribunals included in
§ 1782’s pre-amendment scope, once modified to include
intergovernmental tribunals; it is a panel “established by
a treaty to which [Lithuania and Russia are parties] . . . in
[a] proceeding[ ] involving a claim in which [Russia] or one
of its nationals [is] interested.”50 Accordingly, finding that
the instant arbitral panel is eligible for § 1782 discovery
assistance is consistent with § 1782’s modern expansion
to include intergovernmental tribunals.
Thus, as the arbitration is a “proceeding in a foreign
or international tribunal,” the District Court did not err
in concluding that the Fund may seek § 1782 discovery
assistance.
II.
The second statutory requirement of § 1782 at issue
requires that the party seeking discovery assistance be an
“interested person.” The Fund asserts that it qualifies as
48. NBC, 165 F.3d at 190 (citing S. Rep. No. 88-1580 (1964),
reprinted in 1964 U.S.C.C.A.N. 3782, 3784 (“Senate Report”)).
49. Id. (emphasis added). Its scope was broadened because,
“[c]learly, the interest of the United States in peaceful settlement
of international disputes is not limited to controversies to which it
is a formal party.” Id. (quoting Senate Report at 3785).
50. See Senate Report at 3784.

24a

an “interested person” under § 1782 as a litigant because
the Fund initiated the arbitration as the assignee of a
Snoras bank shareholder. We agree. Under Intel, “no
doubt litigants are included among, and may be the most
common example of, the ‘interested person[s]’ who may
invoke § 1782.”51
AlixPartners contests the Fund’s status as a “litigant”
because the Fund has thus far failed to affirmatively
submit proof, both in the arbitration and before this Court,
that it is the assignee. 52 But AlixPartners’s argument
overcomplicates a straightforward inquiry. The Fund is
plainly an “interested person” because it is a party to
the very arbitration under way between the Fund and
Lithuania that is the basis of this proceeding in a U.S.
court. 53 Accordingly, the District Court did not err in
determining that the Fund sufficiently demonstrated that
it is an “interested person” for the purpose of § 1782.
51. Intel, 542 U.S. at 256.
52. The arbitration has been bifurcated to first address this
issue concerning the Fund’s standing before proceeding to the
merits.
53. See Certain Funds, Accts. and/or Inv. Vehicles v. KPMG,
L.L.P., 798 F.3d 113, 119 (2d Cir. 2015) (“[T]he [Intel] Court cited with
approval the expansive definition [of ‘interested persons’] provided
by [Professor] Hans Smit, [the] leading academic commentator on
the statute [and one who famously] played a role in its drafting.
Professor Smit maintained that the phrase ‘any interested person’ is
‘intended to include not only litigants before foreign and international
tribunals, but also foreign and international officials as well as any
other person . . . [who] merely possess[es] a reasonable interest in
obtaining the assistance.’ Hans Smit, International Litigation
Under the United States Code, 65 Colum. L. Rev. 1015, 1027 (1965).”).

25a

III.
Having held that the Fund qualifies as an “interested
person” who properly applied for discovery assistance for
use in a “proceeding in a foreign or international tribunal,”
we proceed to review the District Court’s decision to grant
the Fund’s § 1782 discovery application. Finding no abuse
of discretion, we affirm. 54
Under § 1782, a district court may, in its discretion,
grant discovery assistance after considering both the
“twin aims” of § 1782 and the so-called Intel factors. The
twin aims of § 1782 are to “provid[e] efficient means of
assistance to participants in international litigation in
our federal courts” and to “encourag[e] foreign countries
by example to provide similar means of assistance to our
courts.”55
AlixPartners argues that discovery assistance would
run contrary to the second of those aims because there is
54. Lancaster Factoring Co., 90 F.3d at 42 (“If the district court
has properly interpreted the requirements of § 1782, its decision
whether or not to order discovery is reviewed only for abuse of
discretion. The court will be found to have abused its discretion only
if there was no reasonable basis for its decision.”) (internal citation,
brackets, and quotation marks omitted).
55. Schmitz v. Bernstein Liebhard & Lifshitz, LLP, 376 F.3d
79, 84 (2d Cir. 2004) (citation omitted). § 1782 provides assistance
to participants in international litigation by directing that “[t]he
district court of the district in which a person resides or is found may
order him to give [discovery] for use in a proceeding in a foreign or
international tribunal.”

26a

no opportunity for reciprocity, inasmuch as the arbitral
panel here is composed of non-governmental arbitrators
and it exists only temporarily. However, AlixPartners’s
focus on the ad hoc character of the arbitral panel
overlooks a more important point: that § 1782 discovery
assistance here would aid and enforce the efficacy of the
Treaty itself. If the United States or its citizens were
involved in such an arbitration, the Congressional policy
of providing § 1782 discovery assistance in cases such as
this would encourage other countries to provide similar
means of assistance. Accordingly, we find no abuse of
discretion in the District Court’s finding that granting
§ 1782 discovery assistance is consistent with the statute’s
twin aims.
Likewise, we find no abuse of discretion in the District
Court’s consideration of the Intel factors. The Intel
factors to be considered are: (1) whether “the person from
whom discovery is sought is a participant in the foreign
proceeding”; (2) “the nature of the foreign tribunal, the
character of the proceedings underway abroad, and the
receptivity of the foreign government or the court or
agency abroad to U.S. federal-court judicial assistance”;
(3) “whether the § 1782(a) request conceals an attempt to
circumvent foreign proof-gathering restrictions or other
policies of a foreign country or the United States”; and (4)
whether the request is “unduly intrusive or burdensome.”56
As to the first Intel factor, the Fund asserts that it
cannot obtain the same documents and testimony from
56. Intel, 542 U.S. at 264-65.

27a

Lithuania as from AlixPartners, LLP, Freakley’s current
employer, because the Fund seeks responsive documents
and communications beyond those accessible through
Lithuania. The Fund also seeks to depose Freakley. We
agree with the District Court that this factor weighs in
favor of granting the discovery request. AlixPartners
is not a participant in this arbitration and is otherwise
outside the arbitral panel’s jurisdictional reach as a third
party, and the evidence sought is not otherwise readily
discoverable.
Second, the District Court properly found that
consideration of “the receptivity of the foreign [tribunal]
to U.S. federal-court judicial assistance” weighs in
favor of granting the Fund’s discovery request. Absent
authoritative proof that a foreign tribunal would reject the
evidence, we have explained that a court should generally
allow discovery if doing so would further § 1782’s goals. 57
As emphasized by the Fund here, the arbitral panel
declined to bar the Fund from seeking § 1782 discovery,
which suggests that the panel would be receptive to such
discovery if obtained.58 In the words of the District Court,
“there is no reason to doubt that the [arbitral panel] would
be receptive to U.S. federal-court judicial assistance.”59
Third, although AlixPartners argues that Lithuanian
bank secrecy laws prohibit the disclosure of the documents
57. See Euromepa S.A. v. R. Esmerian, Inc., 51 F.3d 1095,
1100 (2d Cir. 1995).
58. Joint App’x 219-20.
59. In re Fund for Protection of Inv. Rights in Foreign States,
2020 U.S. Dist. LEXIS 119816, 2020 WL 3833457, at *3.

28a

sought by the Fund, the provision of § 1782 that “[a] person
may not be compelled to give his testimony or statement
or to produce a document or other thing in violation of any
legally applicable privilege” is not as expansive as it may
at first blush appear.
Indeed, in Intel, the Supreme Court expressly held
that § 1782 does not have a “foreign-discoverability
rule” that would “categorically bar a district court from
ordering production of documents where the foreign
tribunal or ‘interested person’ would not be able to
obtain the documents if they were located in the foreign
jurisdiction.”60 Likewise, in Brandi-Dohrn, we held that
there is no statutory basis for a foreign-admissibility
requirement. 61 Accordingly, the foreign tribunal is
“free to exclude the evidence or place conditions on its
admission.”62 When the arbitral panel declined to bar
the Fund from pursuing this § 1782 application in its
December 2019 order, it stated that it would consider
evidence in accord with this concept. The arbitral panel
indicated that barring discovery at that stage would be
“premature” despite Lithuania’s argument that it “should
not be receptive to allowing the [§ 1782] evidence.” 63
Instead, the arbitral panel determined that
[Lithuania] will be able to contest any evidence
that might be obtained pursuant to the [Fund’s
60. Intel, 542 U.S. at 259-60.
61. Brandi-Dohrn, 673 F.3d at 82.
62. Id.
63. Joint App’x 220.

29a

§] 1782 Application . . . before the Tribunal. In
particular, as argued by the [Fund], [Lithuania]
will have the opportunity in due course to object
to the admissibility of any such evidence at
issue-if the [Fund] introduces it into the record
- on the basis of privilege allegedly accorded
to this evidence by Lithuanian banking law.64
Likewise, the District Court observed that the
privileges identified by AlixPartners “may regulate
conduct in Lithuania and govern proceedings there, but
[the Fund] seeks discovery for use in an international
proceeding, with its own rules governing discoverability
and admissibility of evidence”—and UNCITRA L
arbitration rules do not appear to prohibit acquisition or
use of the information sought by the Fund.65 Therefore,
the District Court stated, if AlixPartners believes
that a privilege under Lithuanian law applies such
that it is prevented from disclosing certain documents,
AlixPartners may “seek a protective order or otherwise
raise objections to the relevant portion of [the Fund’s]
discovery request.”66
This approach—to address discoverability and
admissibility issues as they arise rather than to impose a
categorical bar in the first instance—is in accord with the
legislative history of § 1782, which left “the issuance of an
64. Id. at 219.
65. In re Fund for Protection of Inv. Rights in Foreign States,
2020 U.S. Dist. LEXIS 119816, 2020 WL 3833457, at *3.
66. 2020 U.S. Dist. LEXIS 119816, [WL] at *3.

30a

appropriate order to the discretion of the court which, in
proper cases, may refuse to issue an order or may impose
conditions it deems desirable.”67 A holding to the contrary,
as we have observed, would “requir[e] a district court to
apply the admissibility laws of the foreign jurisdiction[,
which] would require interpretation and analysis of
foreign law and such ‘[c]omparisons of that order can be
fraught with danger.’”68 That danger is apparent in this
case—AlixPartners and the Fund disagree as to whether
the material sought is privileged under Lithuanian law,
and whether such privileges would apply in this treaty
arbitration, governed as it is by UNCITRAL rules
that make it likely that the arbitral panel would apply
Lithuanian law to substantive matters. Accordingly,
we find no error in the District Court’s determination
that it would consider the Lithuanian privilege issue as
necessary and appropriate as discovery proceeds, such
as by granting protective orders or hearing objections.69
Fourth, the District Court did not err in finding
that the Fund’s request is not “unduly intrusive or
burdensome” under Federal Rule of Civil Procedure
67. Intel, 542 U.S. at 260-61 (quoting Senate Report at 3788);
see also Brandi-Dohrn, 673 F.3d at 81 (“[A]lthough there is no
requirement under § 1782 that the type of discovery sought be
available in the relevant foreign jurisdiction, a court may look to
the nature, attitude and procedures of that jurisdiction as ‘useful
tool[s]’ to inform its discretion.”) (quoting Schmitz, 376 F.3d at 84).
68. Brandi-Dohrn, 673 F.3d at 82 (quoting Intel, 542 U.S. at
263).
69. See, e.g., Mees v. Buiter, 793 F.3d 291, 303 n.20 (2d Cir. 2015).

31a

26.70 We agree with the District Court that the Fund’s
“requests go to the heart of [its] case in the [a]rbitration,
and appear to be proportionate to [its] needs.” 71 And, as
discussed above, AlixPartners “may apply to [the District]
Court for a protective order or for other relief as necessary
to appropriately limit discovery.” 72
All in all, we cannot conclude that the District Court
erred, much less abused its discretion, in weighing the
relevant factors and concluding that they favored granting
of the Fund’s § 1782 application.73
70. In re Fund for Protection of Inv. Rights in Foreign States,
2020 U.S. Dist. LEXIS 119816, 2020 WL 3833457, at *4.; see Mees,
793 F.3d at 302 (“[A] district court evaluating a § 1782 discovery
request should assess whether the discovery sought is overbroad or
unduly burdensome by applying the familiar standards of Rule 26
of the Federal Rules of Civil Procedure.”); Fed. R. Civ. P. 26(b)(1)
(“Parties may obtain discovery regarding any nonprivileged matter
that is relevant to any party’s claim or defense and proportional to
the needs of the case, considering the importance of the issues at
stake in the action, the amount in controversy, the parties’ relative
access to relevant information, the parties’ resources, the importance
of the discovery in resolving the issues, and whether the burden or
expense of the proposed discovery outweighs its likely benefit.”).
71. In re Fund for Protection of Inv. Rights in Foreign States,
2020 U.S. Dist. LEXIS 119816, 2020 WL 3833457, at *4.
72. Id. (citing In re Accent Delight Int’l Ltd., 791 F. App’x 247,
252 (2d Cir. 2019) (“[T]he district court did not abuse its discretion
by concluding that [p]etitioners’ requests would not be unduly
burdensome and that, if issues arose, they could be resolved through
a protective order.”)).
73. See supra note 22.

32a

IV.
As a final matter, AlixPartners argues that the District
Court abused its discretion in denying AlixPartners’s
motion for reconsideration. AlixPartners takes issue with
what it characterizes as the District Court’s “bright-line
rule” that “arbitrations conducted pursuant to a bilateral
investment treaty like the [Treaty before us here] do
qualify as ‘foreign or international tribunals’ under
§ 1782.” 74
We disagree with that characterization of the District
Court’s decision. As the foregoing discussion makes clear,
we do not create a “bright-line rule” that all arbitrations
conducted pursuant to a bilateral investment treaty
qualify as a “foreign or international tribunal,” and the
District Court likewise created no such rule. Instead,
we hold that the features of this particular arbitration,
conducted pursuant to this Treaty, are consistent with
the functional features of foreign or international arbitral
tribunals that, as we emphasized in Guo, differentiate
such arbitrations from private commercial arbitration.
In these circumstances, we find no abuse of discretion in
the District Court’s denial of reconsideration of its July
8, 2020 Order.

74. Appellants Br. 54 (quoting In re Fund for Protection of Inv.
Rights in Foreign States, 2020 U.S. Dist. LEXIS 153808, 2020 WL
5026586, at *2).

33a

CONCLUSION
To summarize, we hold as follows:
(1) After considering the relevant Guo factors,
this arbitration is between an investor and a
foreign State party to a bilateral investment
treaty (here, the Treaty), taking place
before an arbitral panel established by that
Treaty, and therefore it is a “proceeding in
a foreign or international tribunal” under
§ 1782.
(2) The Fund is a party to the arbitration for
which it seeks discovery assistance and the
Fund is therefore an “interested person”
under § 1782.
(3) The District Court did not abuse its
discretion or otherwise err in determining
that the Intel factors weigh in favor of
granting the Fund’s application for discovery
assistance.
For the foregoing reasons, we AFFIRM the July 8, 2020
Order and the August 25, 2020 Order of the District Court.

34a
APPENDIX B

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
IN RE THE APPLICATION OF THE FUND
FOR PROTECTION OF INVESTOR RIGHTS IN
FOREIGN STATES PURSUANT TO 28 U.S.C.
§ 1782 FOR AN ORDER GRANTING LEAVE
TO OBTAIN DISCOVERY FOR USE IN
A FOREIGN PROCEEDING.
19 Misc. 401 (AT)
ANALISA TORRES, District Judge:
ORDER
On July 8, 2020, the Court entered an order (the
“July Order”) granting an application under 28 U.S.C.
§ 1782 seeking leave to obtain discovery to be used in
an international arbitration proceeding, brought by
Applicant, The Fund for Protection of Investor Rights in
Foreign States, a corporation organized under Russian
law. July Order, ECF No. 27.
Applicant sought discovery for use in a proceeding (the
“Arbitration”) before an arbitral tribunal (the “Tribunal”)
constituted under a treaty titled the Ag reement
Between the Government of the Russian Federation

35a

and the Government of the Republic of Lithuania on the
Promotion and Reciprocal Protection of the Investments
(the “Treaty”). Notice of Arbitration ¶ 2, ECF No. 3-1.
The Treaty provides that when an investor has a dispute
with a state that is a party to the Treaty, the investor
may (after following required procedures) bring the
dispute before “an ad hoc arbitration in accordance with
Arbitration Rules of the United Nations Commission on
International Trade Law” (“UNCITRAL”). Id. ¶ 63. The
targets of Applicant’s discovery requests, Simon Freakley
and AlixPartners, LLP, opposed the application. ECF No.
18. On July 22, 2020, Freakley and AlixPartners filed a
motion for reconsideration of the July Order. ECF No. 28.
For the reasons below, the motion for reconsideration
is DENIED.1
DISCUSSION
I.

Jurisdiction

On August 7, 2020, Freakley and AlixPartners filed
a notice of appeal of the July Order. ECF No. 33. “[T]he
filing of a notice of appeal typically ‘divests the district
court of its control over those aspects of the case involved
in the appeal.”’ Leeber Realty LLC v. Trustco Bank, 798 F.
App’x 682, 687 (2d Cir. 2019) (quoting Griggs v. Provident
Consumer Disc. Co. 459 U.S. 56, 58 (1982)). However, “if a
1. Freakley and AlixPartners also seek a stay of the July Order
pending resolution of the motion for reconsideration. Because this
order denies the motion for reconsideration, that request is moot.

36a

notice of appeal is filed after a motion for reconsideration,
the district court retains jurisdiction over the motion for
reconsideration.” Rich v. Associated Brands, Inc., No.
08 Civ. 666S, 2009 WL 236055, at *1 (W.D.N.Y. Jan. 30,
2009); see also, e.g., United States v. Bohannon, 247 F.
Supp. 3d 189, 193 (D. Conn. 2017) (“[T]he pendency of an
appeal does not divest a district court of jurisdiction over
[a] motion for reconsideration.” (internal quotation marks
and citation omitted)); United States v. Erskine, No. 05
Cr. 1234, 2014 WL 12862427, at *1 (S.D.N.Y. Apr. 24, 2014)
(“As [the defendant] filed his motion for reconsideration
before he filed his notice of appeal, however, I retain
jurisdiction over [the] motion for reconsideration.”).
Accordingly, the Court concludes it has jurisdiction
to decide Freakley and AlixPartner’s motion.
II. Legal Standard
Motions for reconsideration are governed by Rule 59
of the Federal Rules of Civil Procedure and Local Civil
Rule 6.3, and are entrusted to the “sound discretion” of
the district court. Davidson v. Scully, 172 F. Supp. 2d 458,
462 (S.D.N.Y. 2001) (internal quotation marks and citation
omitted). A court may grant a motion for reconsideration
“to correct a clear error of law or prevent manifest
injustice.” Munafo v. Metro. Transp. Auth., 381 F.3d 99,
105 (2d Cir. 2004) (internal quotation marks and citation
omitted). “The standard for granting such a motion is
strict, and reconsideration will generally be denied unless
the moving party can point to controlling decisions or
data that the court overlooked—matters, in other words,

37a

that might reasonably be expected to alter the conclusion
reached by the court.” Shrader v. CSX Transp., Inc., 70
F.3d 255, 257 (2d Cir. 1995).
To that end, a party “may not use a motion under
Rule 6.3 to advance new facts, issues or arguments not
previously presented to the court.” McGee v. Dunn, 940
F. Supp. 2d 93, 100 (S.D.N.Y. 2013) (internal quotation
marks and citation omitted); see also Analytical Surveys,
Inc. v. Tonga Partners, L.P., 684 F.3d 36, 52 (2d Cir.
2012) (“It is well-settled that Rule 59 is not a vehicle for
relitigating old issues, presenting the case under new
theories, securing a rehearing on the merits, or otherwise
taking a second bite at the apple.” (internal quotation
marks and citation omitted)). The burden rests with the
party seeking reconsideration to “demonstrate that the
Court overlooked controlling decisions or factual matters
that were put before it on the underlying motion.” Davis
v. Gap, Inc., 186 F.R.D. 322, 324 (S.D.N.Y. 1999).
III. Analysis
Freakley and AlixPartners argue that the July Order
should be reconsidered in light of the Second Circuit’s
holding in In re Guo, 965 F.3d 96 (2d Cir. 2020), an opinion
issued on the same day as the July Order. Reconsideration
Mem. at 5, ECF No. 29. In Guo, the Second Circuit held
that § 1782(a) does not extend to private international
commercial arbitrations, reaffirming its prior holding in
National Broadcasting Co. v. Bear Stearns & Co., 165
F.3d 184 (2d Cir. 1999) (“NBC”). 965 F.3d at 106–07. The
Second Circuit also provided guidance as to the factors

38a

that determine whether an arbitral proceeding constitutes
a “foreign or international tribunal” for purposes of § 1782,
holding that courts should look to “the degree of state
affiliation and functional independence possessed by the
entity, as well as the degree to which the parties’ contract
controls the panel’s jurisdiction,” and that ultimately
“the inquiry is whether the body in question possesses
the functional attributes most commonly associated with
private arbitration.” Id. at 107.
Freakley and AlixPartners argue that the July Order
cannot stand in light of Guo because the July Order focused
on the Arbitration’s origins in governmental action, rather
than its current governmental status. Reconsideration
Mem. at 6. Freakley and AlixPartners further argue that
application of the Guo factors to the Arbitration would
indicate that it was a private arbitration. Id. at 8.
Contrary to Freakley and AlixPartner’s contentions,
Guo suggests that arbitrations conducted pursuant to a
bilateral investment treaty like the Treaty do qualify as
“foreign or international tribunals” under § 1782. The
applicant in Guo argued that the arbitral body at issue
was not a typical private arbitration, but instead “most
closely resemble[d] arbitration under bilateral investment
treaties.” Guo, 965 F.3d at 108 n.7. The Second Circuit
rejected that argument, explaining:
While an arbitral body under a bilateral
investment treaty may be a “ foreign or
international tribunal,” the arbitration here
derives adjudicatory authority solely from the

39a

parties’ agreement, rather than the intervention
or license of any government to adjudicate
cases arising from certain varieties of foreign
investment. Additionally, the dispute here is
between two private parties, while arbitration
under bilateral investment treaties is typically
between a private party and a state.
Id.; see also id. at 108 (“To be sure, [the ability of the parties
to select their own arbitrators] is not determinative, as
agreements between countries to arbitrate disputes
between their citizens may involve selection of the
arbitrators by the parties, and such a tribunal may be a
‘foreign or international tribunal’ notwithstanding this
fact.”).
Freakley and AlixPartners point to Guo’s enumeration
of the particular characteristics of the arbitral body
at issue in that case that indicated it was a private
arbitration, and assert that the Tribunal shares many of
them. Reconsideration Mem. at 9–14; see Guo, 965 F.3d
at 107–08 (considering “the extent to which the arbitral
body is internally directed and governed by a foreign state
or intergovernmental body,” “the degree to which a state
possesses the authority to intervene to alter the outcome
of an arbitration after the panel has rendered a decision,”
whether the “panel derives its jurisdiction exclusively
from the agreement of the parties and has no jurisdiction
except by the parties’ consent,” and “the ability of the
parties to select their own arbitrators”). They presented
arguments based on those same factors in their opposition
to Applicant’s motion, largely relying on the district court

40a

opinion affirmed in Guo. Opp. at 10–12, ECF No. 18. The
Court nonetheless held that the Arbitration was taking
place before a “foreign or international tribunal” within
the meaning of § 1782 in light of the role of bilateral
investment arbitration as a tool of international relations,
the fact that the Tribunal derives its jurisdiction from the
Treaty, and the fact that the Arbitration is a means by
which Applicants are bringing claims against the Republic
of Lithuania in its capacity as a state. July Order at 4–5
& n.1. Those factors indicate that the Tribunal does
not “possess[] the functional attributes most commonly
associated with private arbitration.” Guo, 965 F.3d at 107.
Thus, nothing in Guo requires the Court to disturb its
previous conclusion.
CONCLUSION
Accordingly, Freakley and AlixPartner’s motion
for reconsideration is DENIED. The Clerk of Court is
directed to terminate the motion at ECF No. 28.
SO ORDERED.
Dated: August 25, 2020
New York, New York
/s/				
ANALISA TORRES
United States District Judge

41a
APPENDIX C

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
19 Misc. 401 (AT)
IN RE THE APPLICATION OF THE
FUND FOR PROTECTION OF INVESTOR
RIGHTS IN FOREIGN STATES PURSUANT TO
28 U.S.C. § 1782 FOR AN ORDER GRANTING
LEAVE TO OBTAIN DISCOVERY FOR USE IN
A FOREIGN PROCEEDING.
July 8, 2020, Filed
ORDER
ANALISA TORRES, District Judge:
Before the Court is an application under 28 U.S.C.
§ 1782 seeking leave to obtain discovery to be used in
an international arbitration proceeding, brought by
Applicant, The Fund for Protection of Investor Rights in
Foreign States, a corporation organized under Russian
law. ECF No. 1. The targets of Applicant’s discovery
requests, Simon Freakley and AlixPartners, LLP, oppose
the application. Opp., ECF No. 18. For the reasons below,
the application is GRANTED.

42a

BACKGROUND
Applicant is the claimant in an ongoing international
arbitration initiated against the Republic of Lithuania (the
“Arbitration”), arising out of Lithuania’s nationalization
of a bank, AB bankas SNORAS (“Snoras”). Notice of
Arbitration, ECF No. 3-1. Applicant claims, among other
things, that in 2011 Lithuania’s regulatory authorities
conducted an investigation of Snoras, announced that the
bank was unable to meet its obligations, and appointed
Simon Freakley as temporary administrator of the
bank. Id. ¶¶ 24, 29-33. Applicant further claims that the
Lithuanian government directed Freakley to complete
his report on a sharply abbreviated timeline, that he
submitted a report funding that Snoras’ net asset value
was lower than the value of its liabilities, and that on
the same day as the report was submitted, Lithuanian
regulatory authorities revoked Snoras’ license and
commenced bankruptcy proceedings, which led promptly
to a Lithuanian court declaring Snoras to be bankrupt.
Ici. ¶¶ 37-40. Applicant alleges that it was assigned any
claims arising out of these events. Id. ¶ 45.
Applicant commenced the Arbitration on April
29, 2019, pursuant to a treaty titled the Agreement
Between the Government of the Russian Federation
and the Government of the Republic of Lithuania on the
Promotion and Reciprocal Protection of the Investments
(the “Treaty”). Id. ¶ 2. The Treaty provides that when
an investor has a dispute with a state that is a party to
the Treaty, the investor may (after following required
procedures) bring the dispute before “an ad hoc arbitration

43a

in accordance with Arbitration Rules of the United
Nations Commission on International Trade Law”
(“UNCITRAL”). Id. ¶ 63.
As of October 15, 2019, Applicant and Lithuania had
each selected a member of the three-member arbitral
tribunal (the “Tribunal”), and were negotiating regarding
the third arbitrator. Yanos Decl. If 2, 22. On December 18,
2019, the fully constituted Tribunal denied a request by
Lithuania to bar Applicant from pursuing this proceeding.
See Arbitral Order, Applicant Supp. Ltr. Ann. A., ECF
No. 24 at 3-12.
DISCUSSION
I.

Legal Standard

28 U.S.C. § 1782(a) provides that “[t]he district court
of the district in which a person resides or is found may
order him to give his testimony or statement or to produce
a document or other thing for use in a proceeding in a
foreign or international tribunal.”
“A district court has authority to grant a § 1782
application where: (1) the person from whom discovery is
sought resides (or is found) in the district of the district
court to which the application is made, (2) the discovery
is for use in a foreign proceeding before a foreign or
international tribunal, and (3) the application is made by a
foreign or international tribunal or any interested person.”
Mees v. Buiter, 793 F.3d 291, 297 (2d Cir. 2015) (internal
quotation marks, citation, and alterations omitted).

44a

If those factors are met, the district court may
authorize discovery in its discretion. In exercising its
discretion, the court must consider four factors laid out
by the Supreme Court in Intel Corporation v. Advanced
Micro Devices, Inc., 542 U.S. 241, 124 S. Ct. 2466, 159 L.
Ed. 2d 355 (2004):
(1) whether “the person from whom discovery
is sought is a participant in the foreign
proceeding,” in which case “the need for
§ 1782(a) aid generally is not as apparent”;
(2) “the nature of the foreign tribunal, the
character of the proceedings underway abroad,
and the receptivity of the foreign government
or the court or agency abroad to U.S. federalcourt judicial assistance”;
(3) “whether the § 1782(a) request conceals an
attempt to circumvent foreign proof-gathering
restrictions or other policies of a foreign
country or the United States”; and
(4) whether the request is “unduly intrusive or
burdensome.”
Mees, 793 F.3d at 298 (quoting Intel, 542 U.S. at 264-65).
II. Analysis
Applicant seeks to require Freakley and AlixPartners
to produce documents relating to the circumstances

45a

of Freakley’s appointment as Snoras’ temporar y
administrator and the instructions he received from the
Lithuanian government; the nature, scope, and findings
of his investigation of Snoras; the “reception” of those
findings by the Bank of Lithuania and other Lithuanian
officials; and any and all reports prepared by Freakley
and his team for the Bank of Lithuania. App. Mem. at 9-10,
ECF No. 2. Applicant also seeks to depose Freakley and
a representative of AlixPartners designated pursuant
to Federal Rule of Civil Procedure 30(b)(6) about these
events. Id.
The Court first addresses the statutory requirements,
and then turns to the Intel factors.
A.

Statutory Requirements

All three of the statutory requirements of § 1782(a)
are met. First, AlixPartners and Freakley do not contest
that they can be “found” in this district. See ECF No.
3-2 (indicating that AlixPartners’ headquarters is in
Manhattan); ECF No. 3-4 (indicating the Freakley works
as chief executive officer of AlixPartners in New York
City); Opp. at 7 (arguing only that the application does
not meet the second and third statutory requirements).
Second, the discovery sought is “for use in a foreign
proceeding before a foreign or international tribunal.”
To be “for use” in a proceeding, information sought
need only be “something that will be employed with
some advantage or serve some use in the proceeding.”
Mees, 793 F.3d at 298. Documents and testimony from

46a

A lixPartners and Freakley related to Freakley’s
position as temporary administrator of Snoras could
assist Applicant in challenging the process that led to
Snoras’ nationalization and bankruptcy. AlixPartners
and Freakley argue that the discovery is nonetheless
not “for use” in a foreign proceeding before a foreign or
international tribunal for two reasons: (1) no proceeding is
within reasonable contemplation, because the Arbitration
is in its preliminary stages, and (2) the Arbitration is not
a “foreign or international tribunal” within the meaning
of § 1782(a). Opp. at 7-12.
Neither argument has merit. A proceeding is not
only contemplated, but actual: Applicant has initiated the
Arbitration, and put at issue claims that plainly implicate
the discovery it seeks. See Notice of Arbitration. And
the Arbitration has several characteristics that indicate
it should be treated as an international tribunal: it was
convened under the authority of the Treaty, a bilateral
agreement between the Republic of Lithuania and the
Russian Federation; Applicant seeks to enforce rights
established by that treaty against Lithuania as a state;
and the Arbitration will be conducted pursuant to
UNCITRAL rules. See In re Application of Chevron
Corp., 709 F. Supp. 2d 283, 291 (S.D.N.Y. 2010) (holding
that an arbitral tribunal “established by an international
treaty,” and conducted “pursuant to UNCITRAL rules,”
constituted a foreign tribunal); see also OJSC Ukrnafta v.
Carpatsky Petroleum Corp., No. 3:09 Misc. 265, 2009 U.S.
Dist. LEXIS 109492, 2009 WL 2877156, at *4 (D. Conn.
Aug. 27, 2009) (holding that § 1782’s reference to foreign
or international tribunals “at minimum, ... include[s]
international-government sanctioned tribunals.”); cf.

47a

Chevron Corp. v. Berlinger, 629 F.3d 297, 310 (2d Cir.
2011) (expressly reserving the question of whether a
“treaty arbitration between Chevron and Ecuador is ... a
proceeding in a foreign or international tribunal within
the meaning of § 1782” (internal quotation marks and
citation omitted)).1
Third, Applicant is the complaining party in the
Arbitration, and falls squarely within the category of
an “interested person.” “No doubt litigants are included
among, and may be the most common example of, the
interested persons who may invoke § 1782.” Intel, 542 U.S.
at 256 (internal quotation marks and citation omitted).
AlixPartners and Freakley claim that Applicant may
not have standing to prosecute, or may not have properly
been assigned, the claims it is asserting in the Arbitration.
Opp. at 12-13. But that issue is not before this Court. As
a matter of fact, Applicant is currently a party to the
Arbitration, and is, therefore, an interested person for
purposes of § 1782.
Accordingly, the Court holds that it has authority
under § 1782 to order the discovery sought by Applicant.
1. A li x Partners and Freakley arg ue that in National
Broadcasting Co. v. Bear Stearns & Co., the Second Circuit held
that “Congress did not intend for [§ 1782] to apply to an arbitral
body established by private parties.” 165 F.3d 184, 191 (2d Cir.
1999); see Opp. at 10-12. The Second Circuit noted, however, that
§ 1782 did apply to arbitral tribunals “created by intergovernmental
agreement” National Broadcasting Co., 165 F.3d at 190. The Court
concludes that the Arbitration, which was created by treaty and
designed to structure relations between two sovereign nations, falls
into that category.

48a

B. Intel Factors
The factors laid down by the Supreme Court to guide
a district court’s discretion also favor granting Applicant’s
request for discovery.
First, Alix Partners and Freakley are not participants
in the Arbitration. This factor, therefore, weighs in favor
of granting the request.
Second, there is no reason to doubt that the Tribunal
would be receptive to U.S. federal-court judicial assistance.
Absent “authoritative proof that a foreign tribunal would
reject evidence obtained with the aid of section 1782,” a
court should allow discovery if doing so would further
§ 1782’s “overarching interest in providing equitable and
efficacious procedures for the benefit of tribunals and
litigants involved in litigation with international aspects.”
Euromepa S.A. v. R. Esmerian, Inc., 51 F.3d 1095, 1100
(2d Cir. 1995) (internal quotation marks and citation
omitted). Here, the Tribunal has already declined to bar
Applicant from seeking discovery in this proceeding.
See Arbitral Order IT 24. The Tribunal did not address
the question of whether any evidence obtained would
ultimately be admissible in the Arbitration, or otherwise
pass on the merits of this application, but its decision
not to preclude Applicant from pursuing this proceeding
indicates that the Court need not weigh “heavily” any
“concern for trespassing upon the prerogatives of [another
jurisdiction’s] sovereignty.” Euromepa, 51 F.3d at 1101.
Third, granting Applicant’s request will not allow
circumvention of foreign proof-gathering restrictions

49a

or other policies. AlixPartners and Freakley argue that
Lithuanian bank secrecy law would prevent disclosure of
the information sought, Opp. at 16-17; Applicant disputes
that contention, Reply at 10-12, ECF No. 21. The Court
need not resolve that issue. The question under the
third Intel factor is whether Applicant seeks to obtain
discovery “in contravention of restrictions in place in the
foreign proceedings.” In re del Valle Ruiz, 939 F.3d 520,
534 (2d Cir. 2019) (emphasis added). The laws on which
AlixPartners and Freakley rely may regulate conduct in
Lithuania and govern proceedings there, but Applicant
seeks discovery for use in an international proceeding,
with its own rules governing discovery and admissibility
of evidence. See generally UNCITRAL Arbitration Rules,
ECF No. 3-15. There is no evidence before the Court
that the Arbitration’s rules would prohibit Applicant’s
acquisition or use of the information sought. See Mees,
793 F.3d at 303 n.20 (“Proof-gathering restrictions are
best understood as rules akin to privileges that prohibit
the acquisition or use of certain materials, rather than
as rules that fail to facilitate investigation of claims by
empowering parties to require their adversarial and
non-party witnesses to provide information.” (internal
quotation marks and citation omitted)). Of course, § 1782(a)
provides that “[a] person may not be compelled to give
his testimony or statement or to produce a document or
other thing in violation of any legally applicable privilege.”
To the extent that AlixPartners and Freakley believe
that Lithuanian law applies in this proceeding to prevent
them from disclosing certain documents, they can seek
a protective order or otherwise raise objections to the
relevant portion of Applicant’s discovery requests.

50a

Fourth, and finally, Applicant’s request is not unduly
intrusive or burdensome. “[A] district court evaluating
a § 1782 discovery request should assess whether the
discovery sought is overbroad or unduly burdensome
by applying the familiar standards of Rule 26 of the
Federal Rules of Civil Procedure.” Mees, 793 F.3d at
302. Applicant’s requests go to the heart of their case in
the Arbitration, and appear to be proportionate to their
needs. See ECF Nos. 3-11, 3-12, 3-13, 3-14. Moreover,
“it is far preferable for a district court to reconcile
whatever misgivings it may have about the impact of its
participation in the foreign litigation by issuing a closely
tailored discovery order rather than by simply denying
relief outright.” Mees, 793 F.3d at 302 (internal quotation
marks and citation omitted). AlixPartners and Freakley
may apply to this Court for a protective order or for
other relief as necessary to appropriately limit discovery,
consistent with the Federal Rules of Civil Procedure.
See In re Accent Delight Int’l Ltd, 791 Fed. Appx. 247,
252 (2d Cir. 2019) (“[T]he district court did not abuse its
discretion by concluding that [p]etitioners’ requests would
not be unduly burdensome and that, if issues arose, they
could be resolved through a protective order.”). On their
face, however, the proposed subpoenas do not appear
so intrusive or burdensome as to justify denial of the
application under § 1782’s liberal standard.
Accordingly, the Court holds that it should exercise
its discretion to permit the discovery sought by Applicant.

51a

CONCLUSION
For the reasons stated, the application pursuant to
§ 1782 is GRANTED. It is ORDERED that Applicant may
issue subpoenas for documents in substantially the same
form as Exhibits 11, 12, 13, and 14 to Alexander Yanos’
declaration filed in support of the application. ECF Nos.
3-11, 3-12, 3-13, 3-14.
The Clerk of Court is directed to terminate the motion
at ECF No. 1, and close the case.
SO ORDERED.
Dated: July 8,
New York, New York
/s/ Analisa Torres
ANALISA TORRES
United States District Judge

52a
APPENDIX D

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
At a stated term of the United States Court of Appeals
for the Second Circuit, held at the Thurgood Marshall
United States Courthouse, 40 Foley Square, in the City
of New York, on the 10 th day of September, two thousand
twenty-one.
Docket No: 20-2653
THE APPLICATION OF THE FUND FOR
PROTECTION OF INVESTOR RIGHTS IN
FOREIGN STATES PURSUANT TO 28 USC 1782
FOR AN ORDER GRANTING LEAVE TO OBTAIN
DISCOVERY FOR USE IN A
FOREIGN PROCEEDING,
Plaintiff-Appellee,
v.
ALIXPARTNERS, LLP, SIMON FREAKLEY,
Third Party Defendants-Appellants.

53a

ORDER
Appellants, AlixPartners, LLP and Simon Freakley,
filed a petition for panel rehearing, or, in the alternative,
for rehearing en banc. The panel that determined the
appeal has considered the request for panel rehearing,
and the active members of the Court have considered the
request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/ Catherine O’Hagan Wolfe

54a
APPENDIX E

28 U.S.C.A. § 1782
§ 178 2 . A ssistance to foreig n and inter nationa l
tribunals and to litigants before such tribunals
Effective: February 10, 1996
(a) The district court of the district in which a person
resides or is found may order him to give his testimony
or statement or to produce a document or other thing for
use in a proceeding in a foreign or international tribunal,
including criminal investigations conducted before
formal accusation. The order may be made pursuant to
a letter rogatory issued, or request made, by a foreign
or international tribunal or upon the application of any
interested person and may direct that the testimony
or statement be given, or the document or other thing
be produced, before a person appointed by the court.
By virtue of his appointment, the person appointed has
power to administer any necessary oath and take the
testimony or statement. The order may prescribe the
practice and procedure, which may be in whole or part
the practice and procedure of the foreign country or
the international tribunal, for taking the testimony or
statement or producing the document or other thing. To
the extent that the order does not prescribe otherwise, the
testimony or statement shall be taken, and the document
or other thing produced, in accordance with the Federal
Rules of Civil Procedure.

55a

A person may not be compelled to give his testimony or
statement or to produce a document or other thing in
violation of any legally applicable privilege.
(b) This chapter does not preclude a person within the
United States from voluntarily giving his testimony or
statement, or producing a document or other thing, for
use in a proceeding in a foreign or international tribunal
before any person and in any manner acceptable to him.

56a
APPENDIX F

AGREEMENT
BETWEEN THE GOVERNMENT
OF THE RUSSIAN FEDERATION AND THE
GOVERNMENT OF THE REPUBLIC OF
LITHUANIA ON THE PROMOTION AND
RECIPROCAL PROTECTION
OF THE INVESTMENTS
The Government of the Russian Federation and the
Government of the Republic of Lithuania, hereinafter
referred to as the “Contracting Parties”,
- desiring to establish favourable conditions for investments
made by investors of one Contracting Party in the
territory of the other Contracting Party,
- recognising that the promotion and reciprocal protection
of investments, based on the present Agreement, will be
conducive to the development of mutually beneficial trade
and economic, scientific and technical co-operation,
have agreed as follows:

57a

Article 1
Definitions
For the purposes of this Agreement:
1. The term “investor” in respect of each Contracting
Party shall mean:
a) any natural person who is a national of the state of
this Contracting Party according to the legislation of
this Contracting Party and authorised to invest in the
territory of the other Contracting Party according to
the legislation of the latter Contracting Party;
b) in respect of the Russian Federation:
any legal person, constituted or established according
to the legislation in force in the territory of the Russian
Federation provided this legal person is authorised
according to the legislation of the Russian Federation
to invest in the territory of the Republic of Lithuania;
in respect of the Republic of Lithuania: any entity
constituted and registered in the territory of the
Republic of Lithuania in conformity with its legislation;
2. The term “investment” shall mean all kinds of assets,
invested by an investor of one Contracting Party in the
territory of the other Contracting Party in accordance
with legislation of the latter Contracting Party, and shall
include in particular, though not exclusively:
a) movable and immovable property as well as
respective property rights;

58a

b) shares, stocks, bonds and other forms of participation
in the enterprises and companies;
c) claims to money, invested to create economic value,
and claims to any performance having an economic
value and connected with investments;
d) exclusive rights to the objects of the intellectual
property (copyrights, patents, industrial designs and
models, trade marks, service marks, goodwill and
know-how);
e) rights to conduct economic activities conferred
by law or under contract, including, in particular,
concessions to search for, cultivate, extract and exploit
natural resources. Any change of form in which
assets are invested or reinvested shall not affect their
character as investment provided such change does not
contradict the legislation of the Contracting Party in
which territory the investments are made.
3. The term “returns” shall mean all amounts produced
by an investment in accordance with paragraph 2 of
this Article and in particular, though not exclusively,
includes profits, capital gains, dividends, interest, licence
remunerations, royalties and other fees.
4. The term “territory” shall mean the territory of the
Russian Federation or the territory of the Republic of
Lithuania, including their respective exclusive economic
zone and continental shelf, in which the respective
state may exercise sovereign rights and jurisdiction in
accordance with international law.

59a

5. The term “legislation of the Contracting Party”
shall mean the laws and regulations of the state of the
Contracting Party in respect of both Contracting Parties.
Article 2
Promotion and protection of investments
1. Each Contracting Party shall encourage investors of
the other Contracting Party to make investments in its
territory and shall admit such investments in accordance
with its legislation.
2. Each Contracting Party in accordance with its legislation
shall guarantee to the investors of the other Contracting
Party full protection and security of the investments made
by the investors of the other Contracting Party.
Article 3
Treatment of Investments
1. Each Contracting Party shall accord in its territory
to the investors, investments made by investors of the
other Contracting Party and activities related to such
investments fair and equal treatment, which excludes
the application of discriminatory measures impeding
management, maintenance, use, enjoyment and disposal
of the investment.
2. The treatment, set forth in the paragraph 1 of this
Article, shall be at least no less favourable than the
treatment accorded by the Contracting Party to the
investments and activities related to such investments of
its own investors or the investors of third state.

60a

3. Each Contracting Party in accordance with its laws and
regulations reserves a right to determine the branches of
the national economy and the spheres of activities where
the activities of foreign investors are restricted or limited.
4. The most favoured nation treatment, provided in
accordance with paragraph 2 of this Article, is not
extended to the benefits which are provided or will be
provided in the future by the Contracting Party:
a) by virtue of any existing or future customs,
monetary and payment union, free trade and common
tariff areas, common market or other forms of regional
economic integration agreements, to which the
Contracting Party is a party or may become a party
in the future;
b) on the basis of the treaties on the avoidance of double
taxation or other agreements on taxation.
Article 4
Key personnel
1. The Contracting Party in accordance with its legislation
regarding entry, temporary stay and work of natural
persons non-citizens, shall permit natural persons, who
are the investors of the other Contracting Party and key
personnel (executives, managers as well as specialists,
who are essential to the functioning of the enterprise),
employed by the investor of this Contracting Party,
to enter and remain in its territory for the purpose of
engaging in activities, related to investments.

61a

2. The Contracting Party, in accordance with its legislation,
shall permit the investors of the other Contracting Party,
who have made investments in the territory of the first
Contracting Party, to employ any employee of the category
of key personnel of their choice regardless of citizenship,
provided this employee of the category of key personnel
was granted permit to enter, temporary stay and work in
the territory of the first Contracting Party, and this work
meets the conditions and temporary limitations set forth
in the permit issued to this employee of the category of
key personnel.
Article 5
Transparency of legislation
Each Contracting Party shall, with a view to promoting
the understanding of its legislation that pertain to or
affect investments made in its territory by the investors
of other Contracting Party, make such legislation public
and accessible.
The Contracting Parties, if necessary, shall exchange
information on the legislation, pertaining to the field of
application of this Agreement.
Article 6
Expropriation and compensation
l. The investments of the investors of one Contracting Party
made in the territory of the other Contracting Party shall
not be subject to expropriation, nationalisation or other
measures equivalent to expropriation or nationalisation

62a

(hereinafter referred to as “expropriation”) unless these
measures are carried out in the public interest and under
due process of law, are carried out without discrimination
and are accompanied by the payment of prompt, adequate
and effective compensation.
2. The compensation shall be equivalent to the market
value of the expropriated investments immediately
before the expropriation in fact occur red or the
impending expropriation became public knowledge. The
compensation shall be paid without undue delay in a
convertible currency and shall be freely transferable from
the territory of one Contracting Party to the territory
of the other Contracting Party. The compensation shall
include interest calculated until the date of payment of
the compensation at the LIBOR rate.
Article 7
Compensation of losses
Investors of one Contracting Party, who suffer losses in
respect of their investments in the territory of the other
Contracting Party due to war, civil disturbance, a state
of national emergency, insurrection, riot or other similar
events, shall be accorded the treatment no less favourable
than that accorded by the latter Contracting Party to its
own investors or to investors of any third State in respect
of any measures taken by it in accordance with such loss.

63a

Article 8
Transfers of payments
1. Each Contracting Party shall guarantee to investors
of the other Contracting Party, after the completion of
all tax obligations, free transfer abroad of payments in
connection with the investments, in particular:
a) the initial capital and additional amounts for the
maintenance or increase of the investment;
b) returns;
c) funds in repayment of loans, directly related to the
investment;
d) the proceeds from the total or partial liquidation or
sale of the investments;
e) compensation referred to in the Article 6 of this
Agreement;
f) the earnings and other remuneration of the investor
of the other Contracting Party and key personnel
authorised to work in connection with investments in
the territory of the first Contracting Party.
2. Transfers shall be made without undue delay in a freely
convertible currency at the exchange rate applying on the
date of transfer in accordance with currency regulations
in force of the Contracting Party in whose territory the
investment was made.

64a

Article 9
Subrogation
The Contracting Party or its designated Agency which
made a payment to an investor under an indemnity against
non-commercial risks given in, respect of an investment in
the territory of the other Contracting Party, shall exercise
by the virtue of subrogation the rights of the investor to
the same extent as the investor. The rights are exercised
in accordance with legislation of the latter Contracting
Party.
Article 10
Settlement of Disputes between one Contracting
Party and an Investor of the other Contracting Party
1. In a case of any dispute between one Contracting Party
and the investor of the other Contracting Party concerning
the investments, including the disputes regarding amount,
conditions or procedure of payment of the compensation,
and the procedure of transfers, referred to respectively
in the Articles 6 and 8 of this Agreement, a written
notification, which includes detailed explanation, is
submitted by the investor to the Contracting Party, which
is a party of the dispute. The parties of the dispute shall
endeavour to settle such dispute, if possible, by the way
of negotiations.
2. If such dispute can not be settled amicably within six
months from the date of the written notification referred to
in paragraph 1 of this Article, the dispute, at the request
of either party and at the choice of an investor, shall be
submitted to:

65a

a) competent court or court of arbitration of the
Contracting Party in which territory the investments
are made;
b) the Arbitration Institute of the Stockholm Chamber
of Commerce;
c) the Court of Arbitration of the International
Chamber of Commerce;
d) an ad hoc arbitration in accordance with Arbitration
Ru les of the Un it ed Nations Comm ission on
International Trade Law (UNCITRAL).
3. The arbitral decision shall be final and binding on both
parties of the dispute. Each Contracting Party shall
undertake to execute such decision in accordance with
its legislation.
Article 11
Settlement of disputes between
the Contracting Parties
1. The disputes between the Contracting Parties
concerning the interpretation and application of this
Agreement shall be settled by negotiations, if possible,
through diplomatic channels.
2. If the dispute is not settled in such way within six
months from the beginning of the negotiations, the dispute
shall, upon the request of either Contracting Party, be
submitted to an Arbitral Tribunal.

66a

3. Such an Arbitral Tribunal shall be constituted for each
case in the following way. Within two months from the date
on which either Contracting Party receives a notification
of arbitration each Contracting Party shall appoint one
arbitrator. These two arbitrators, within two months
period from the appointment of these arbitrators, shall
select the national of the third state, who, upon approval
of both Contracting Parties, shall be elected the Chairman
of the Arbitral Tribunal.
4. If the necessary appointments were not made in the
periods, referred to in the paragraph 3 of this Article,
either Contracting Party may, in the absence of any other
agreement, invite the President of the International Court
of Justice to make such appointments. If the President
of the International Court of Justice is a national of one
of the Contracting Parties or is otherwise unable to
carry out the specified request, the Vice-President of the
International Court of Justice shall be invited to make
the necessary appointments. If the Vice-President of the
International Court of Justice is a national of one of the
Contracting Parties or is otherwise unable to carry out
the specified request, the member of the International
Court of Justice next in seniority who is not a national
of either Contracting Party shall be invited to make the
necessary appointments.
5. The Arbitral Tribunal shall reach its decision award by
the majority of votes. Such decision award of the Arbitral
Tribunal is final and binding upon each Contracting Party.
The Arbitral Tribunal shall determine the procedures of
its work independently.

67a

6. Each Contracting Pa r ty shall bea r the costs
connected with the activities the member of the Arbitral
Tribunal, appointed by this Contracting Party, and of its
representation in the arbitration proceedings; the cost
of the Chairman of the Arbitral Tribunal and remaining
costs shall be borne in equal parts by the Contracting
Parties. The Arbitral Tribunal may, however, decide that
a higher proportion of costs shall be borne by one of the
two Contracting Parties, and such award shall be binding
on both Contracting Parties.
Article 12
Consultations
The Contracting Parties shall consult at the, request of
either of them on matters concerning the interpretation
and application of this Agreement.
Article 13
Application of the Agreement
This Agreement shall apply to investments made in the
territory of one Contracting Party by the investors of the
other Contracting Party as from January 1, 1992.
The provisions of this Agreement shall apply to the
disputes, referred to in the Articles 10 and 11 of this
Agreement, from the date of its entry into force.

68a

Article 14
Entry into force and Duration of the Agreement
1. Each Contracting Party shall notify the other
Contracting Party in a written form that all internal
procedures for the entry into force of this Agreement have
been fulfilled. The Agreement shall enter into force from
the date of the latter of the two notifications.
2. The Agreement shall remain in force for the period of
fifteen years. It shall continue to be in force thereafter
until the expiration of twelve months from the date on
which, either Contracting Party shall have given the
other Contracting Party written notice concerning the
termination of this Agreement.
3. The Protocol, annexed hereto, shall form an integral
part of the Agreement.
4. This Agreement may be amended by the mutual
written consent of the both Contracting Parties. Any such
amendment shall enter into force when each Contracting
Party have notified the other Contracting Party that
all internal procedures for the entry into force of such
amendment have been fulfilled.
5. The provisions of the other Articles of this Agreement
shall continue to be effective for a further period of
ten-years from the date of its termination in respect of
investments made before the termination of and covered
by this Agreement.

69a

Done in duplicate in Moscow on the 29th of June, 1999, in
the Russian, Lithuanian and English languages, all texts
being equally authentic. In case of divergence, the English
text shall be operative.
For the Government of
the Russian Federation

For the Government of
the Republic of Lithuania

PROTOCOL
At the signing of the Agreement between the Government
of the Russian Federation and the Government of the
Republic of Lithuania on the promotion and reciprocal
protection of investments (hereinafter referred to as “the
Agreement”), the Contracting Parties have agreed upon
the following provisions, that shall form the integral part
of the Agreement:
l. Notwithstanding the provisions of the Article 10 of the
Agreement, the investors, whose investments are being
expropriated, shall have a right to prompt review of
their case by the appropriate judicial or administrative
authorities of the expropriating Contracting Party
to determine whether such expropriation, and any
compensation therefore, conforms to the principles set
forth in the Article 6 of the Agreement and the legislation
of the expropriating Contracting Party.
2. Notwithstanding the provisions of the Article 13 of the
Agreement, in respect of the Republic of Lithuania:

70a

a) the provisions of the Agreement shall not apply to
the matters relating to acquisition, possession, use,
disposal and other rights to land plots;
b) the matters referred to in subparagraph a) of the
paragraph 2 of this Protocol shall be regulated by the
legislation of the Republic of Lithuania.
Done in duplicate in Moscow on the 29th of June 1999, in
the Russian, Lithuanian and English languages, all texts
being equally authentic. In case of divergence, the English
text shall be operative.
For the Government of the Russian Federation
For the Government of the Republic of Lithuania

